<html>
<title> - INTERNATIONAL DRUG CONTROL POLICY: COLOMBIA</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
              INTERNATIONAL DRUG CONTROL POLICY: COLOMBIA
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 1997

                               __________

                           Serial No. 105-72

                               __________

Printed for the use of the Committee on Government Reform and Oversight










                       U.S. GOVERNMENT PRINTING OFFICE
45-991                     WASHINGTON : 1998
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
              Sean Littlefield, Professional Staff Member
                          Ianthe Saylor, Clerk
                    Michael Yeager, Minority Counsel


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 1997.....................................     1
Statement of:
    Davidow, Jeffrey, Assistant Secretary of State, Bureau of 
      Inter-American Affairs, Department of State; Myles 
      Frechette, United States Ambassador to Colombia; Jane E. 
      Becker, Acting Assistant Secretary, Bureau of International 
      Narcotics and Law Enforcement Affairs, Department of State; 
      Jim Thessin, Deputy Legal Advisor, Office of Legal Advisor, 
      Department of State; Robert Newberry, principal director, 
      Drug Enforcement Affairs, Department of Defense; Donnie 
      Marshall, Chief of Operations, Drug Enforcement 
      Administration; and Henry L. Hinton, Jr., Assistant 
      Comptroller General, General Accounting Office.............    12
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Geogia:
        Article dated July 8 from La Nacion......................   103
        Draft Memorandum of Understanding: End Use Monitoring....   131
        Letter dated July 7, 1997................................   108
        Letters dated June 13, 1997, June 26, 1997, and June 6, 
          1997...................................................   125
        Title 31 U.S.C. Section 716..............................   105
    Becker, Jane E., Acting Assistant Secretary, Bureau of 
      International Narcotics and Law Enforcement Affairs, 
      Department of State:.......................................
        Information concerning Boston Whaler riverine patrol 
          craft..................................................   119
        Information concerning delivery of the C-26 aircraft.....   120
        Prepared statement of....................................    44
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   147
    Davidow, Jeffrey, Assistant Secretary of State, Bureau of 
      Inter-American Affairs, Department of State, prepared 
      statement of...............................................    15
    Frechette, Myles, United States Ambassador to Colombia, 
      prepared statement of......................................    28
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York:
        Letter dated June 5, 1997................................    10
        Letters dated October 1, 1996, and March 20, 1997........    93
    Hastert, Hon. Dennis J., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     5
    Hinton, Henry L., Jr., Assistant Comptroller General, General 
      Accounting Office, prepared statement of...................    72
    Marshall, Donnie, Chief of Operations, Drug Enforcement 
      Administration, prepared statement of......................    59
    Newberry, Robert, principal director, Drug Enforcement 
      Affairs, Department of Defense, prepared statement of......    54
    Thessin, Jim, Deputy Legal Advisor, Office of Legal Advisor, 
      Department of State, prepared statement of.................    52


















              INTERNATIONAL DRUG CONTROL POLICY: COLOMBIA

                              ----------                              


                        WEDNESDAY, JULY 9, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Mica, Shadegg, Barr, 
Barrett, Blagojevich, Cummings, and Turner.
    Ex officio present: Representative Burton.
    Also present: Representative Gilman.
    Staff present: Robert Charles, staff director; Sean 
Littlefield, professional staff member; Ianthe Saylor, clerk; 
Michael Yeager, minority counsel; and Ellen Rayner, minority 
chief clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will now come to 
order. Over the Memorial Day work period I was joined by Mr. 
Souder, Mr. Blagojevich, Mr. Barr, and Mr. Sanford on a 
counternarcotics fact-finding mission to the Andean drug-
producing region of Colombia, Bolivia, and Peru.
    We spent 10 days in the jungles where cocaine is produced 
and on the rivers where it's transported. We experienced first-
hand the ongoing efforts of the United States and the host 
nations to combat narcotrafficking. We witnessed what has 
become of the current levels of U.S. support and what could be 
done with additional support.
    Clearly it's paramount if we intend to be serious about the 
war on drugs that we make every possible effort to stop these 
poisons before they cross our border. Today's hearing on 
Colombia will explore a number of issues related to the United 
States support for Colombian counternarcotics efforts.
    In February, this subcommittee conducted a hearing focusing 
on the United States counternarcotics assistance to Colombia 
and the extraordinary efforts of Colombians, especially the 
antinarcotics units of the Colombian national police, led by 
Colonel Gallego, to halt cocaine and heroin at their main 
source.
    Before us sat General Jose Serrano, director of the 
Colombian national police, and General Harold Bedoya, commander 
of the Colombian military chiefs. At that time and today, these 
men are engaged in the life and death struggle to win a war 
against the narcotraffickers.
    The truth is, they need our help. We've had the modest 
equipment and resources they need to turn the drug war around. 
In my view the lack of adequate support by our administration 
is inexcusable. The drug war can be won. And it is our moral 
obligation to give the Colombians the basic means to achieve 
that end, not just to save their nation, but to save our 
children as well.
    The facts are incontrovertible. And the obstruction of 
United States antidrug aid to Colombia by our own State 
Department is in my view almost unforgivable. It's arguably 
costing thousands of lives in both Colombia and the United 
States. The Colombian national police vitally need the antidrug 
aid the United States Congress made available and which the 
United States State Department has apparently held back.
    The Colombian national police are locked in a genuine war 
against the narcotraffickers and the guerrillas who support 
them. Evidence of the danger the police and military face was 
clear this past week with the guerrillas shooting down a 
Russian-made MI-17 helicopter, killing the 29 Colombian 
military on board.
    There should be no mistake: the guerrillas of Colombia long 
ago abandoned ideology. They work hand in hand with the 
international drug traffickers, providing security, cultivating 
crops, and manning the cocaine labs. These narcoguerrillas 
engage in some of the most ruthless and reckless behavior in 
our hemisphere. They kidnap and kill innocents, including 
American citizens, six of whom are currently being held hostage 
as we speak. They kill with indifference, and they sustain 
their carnage with drug money provided by American consumers 
and we think to the tune of almost $6 million a month.
    Our February panel also included Ambassador Robert Gelbard, 
former Assistant Secretary for International Narcotics and Law 
Enforcement Affairs. Ambassador Gelbard pledged that if 
Colombia were decertified for the second year in a row serious 
consideration would be given to granting them either a national 
interest waiver or a 614 Presidential waiver. Moreover, an 
additional promise was made to Congress that the waiver would 
swiftly be issued if Colombia were decertified.
    Either of these waivers would free up much-needed 
assistance to Colombian counternarcotics efforts. However, 
despite the administration's decision to decertify Colombia for 
a second year, the national interest waiver was denied and the 
614 waiver has yet to be finalized. Last Monday, however, the 
Department of State formerly announced to the Senate and the 
House authorizers and appropriators that the 614 process is 
being undertaken.
    I applaud this action. But I remain disappointed that it 
has been over 4 months since the decertification decision has 
been made before final consultation processes commenced.
    Over this past weekend both the Colombian military and 
Colombian national police experienced heavy casualties. More 
than 30 Colombian soldiers and at least 5 Colombian national 
police officers were murdered by the guerrillas, with more than 
100 wounded during these missions. Additionally, a helicopter 
was shot down in that battle.
    The administration has been promising to release rapid fire 
miniguns to protect Colombian national police helicopters 
during the missions like this for more than 3 years. 
Tragically, as with the 614 waiver, this subcommittee has been 
told many different conflicting stories by the administration 
as to the availability and location of the miniguns.
    These excuses beg the question: How many poor people have 
to die before somebody owns up to its commitments to the 
Congress and to the brave soldiers trying to stop drugs in 
Colombia and, incidentally, stopping drugs from going into this 
country?
    Today we're going to ask the administration why the 614 
waiver, although apparently now underway, has taken so long to 
be granted. From Ambassador Myles Frechette to the State 
Department to the White House to the National Security Council, 
this subcommittee has received a dizzying array of conflicting 
excuses and stories as to why the 614 waiver still remains 
unsigned.
    That is why we have assembled the panel before us. The 
lifesaving assistance that we can and should provide to the 
Colombian national police will almost certainly result in 
substantially less cocaine and heroin heading toward the 
streets and schools of American cities and towns.
    It will provide much-needed protection for the CNP 
officers--the Colombian national police. Today, the Colombian 
national police is operating on a shoestring budget that 
affords them with less than 2 weeks' ammunition and 
insufficient tools and spare parts for helicopters' repair and 
maintenance. These brave men and women are staring down death 
every day.
    Today, we will ask ask Ambassador Frechette why the DEA 
agents that Congress appropriated in fiscal year 1997 still 
have not been placed in Colombia. Last year Congress 
specifically earmarked 15 DEA personnel for Colombia, of which 
11 are to be special agents.
    And since January 1997, a request for 11 DEA special 
agents, 8 in Bogota and 3 in Barranquilla, and at least 4 
support positions have been pending. Ambassador, we're going to 
ask whether those blessings are there and the state approval to 
start approval is apparent.
    For this total Ambassador Frechette approved staffing 
increases for only four positions in Bogota. This was after our 
codel raised serious questions during our stop in Bogota. Four 
positions for Bogota country office and three positions for 
Barranquilla resident office are pending approval despite the 
well-established need.
    It appears that, Ambassador, you may have intentionally 
circumvented the intent of Congress with this and other issues. 
And this subcommittee demands an explanation of these actions.
    We will also ask the Department of State why the General 
Accounting Office, in conducting this review of 
counternarcotics assistance to Colombia, has encountered 
numerous obstacles and impediments which have negatively 
impacted the GAO's ability to provide Congress with timely and 
accurate examination of drug control efforts in Colombia. GAO 
officials have informed this subcommittee that the Department 
has created a bureaucratic document screening that has delayed 
the release of documents requested as far back as April.
    Moreover, the Department continues to withhold documents 
requested from the United States Embassy in Colombia. The GAO 
is the investigative arm of the Congress, and as such enjoys 
certain privileges with regards to obtaining information from 
any agency in a timely manner.
    Ambassador, I may remind you that you said that we should 
have privy to any of those documents that you had numbered and 
provided to us.
    And finally, we've asked the Department of Defense to come 
before us today to discuss their proposal as part of the 
defense authorization process to provide Colombia with the 
riverine assets. These assets will counter the narcotrafficking 
shift from air transport to riverine transport by applying 
additional pressure to these routes. The air bridge, once 
unstoppable, has been shut down. And because of this, the 
rivers are new routes for narcotrafficking.
    The overwhelming majority of cocaine and heroin that leaves 
the shores of Colombia by air and by sea is headed straight for 
the cities and towns of our Nation. And the largest population 
for the growing and diversifying drug cartels is mainly our 
youth. As I have said before and will say again, the 
internationally driven drug onslaught is the most insidious 
national security threat we face as a Nation. This is why it's 
so vital that we provide ample counter-narcotics support of 
those people who are willing to help us. And namely in this 
situation it's the Colombian national police and the Colombian 
military.
    These heroic and largely unknown men fight a death to death 
struggle every day, not only for Colombia's survival but for 
ours and our children's as well.
    And before I turn to Mr. Barrett for his opening statement, 
I would like to recognize the recent efforts in the Colombian 
Congress to pass a constitutional amendment which would be the 
first step toward implementing extradition between Colombia and 
the United States. We applaud these attempts, Colombia's 
efforts to date. And we know that this important extradition 
provision will pass the Colombian Congress in this coming 
session.
    This remains one of the most important issues between our 
two countries. And I'm hopeful that the Colombian congress, 
with the support and courage of the business community, 
especially the Colombian flower growers and others, can get 
this done this year.
    I would now like to recognize my colleague and good friend 
and ranking member, Tom Barrett, for his opening statement.
    [The prepared statement of Hon. J. Dennis Hastert follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Barrett. Thank you, Mr. Chairman. I'd like to join you 
in welcoming our distinguished panel of witnesses today.
    The significance of Colombia as the international center of 
cocaine production and smuggling cannot be overstated. Three-
quarters of the world's cocaine is produced both from locally 
grown coca and cocaine base imported from Peru and Bolivia. The 
lion's share of cocaine that reaches our shores and destroys 
our communities comes from Colombia. We all have a deep and 
abiding interest in the success of our drug policy there.
    We're going to spend much time today discussing the efforts 
of the Colombia military and national police risking their 
lives to fight narcotics traffickers and the guerilla groups 
that give them support. It is very important that we do that, 
and important that we commend the efforts of those committed to 
fighting the traffickers. We have a great deal to lose if they 
give up that fight.
    At the same time we must not lose sight of the consequences 
of our foreign assistance, both for the good and for the bad. 
Colombia is plagued by political and drug related violence. 
Much of that is committed by guerilla forces, but not only by 
guerrillas. Some members of the Colombian military are also 
responsible for grievous human rights abuses.
    We have a responsibility to take a hard look, to insist on 
accountability, and to make certain our military aid doesn't 
add to the death toll. As the President considers the exercise 
of his authority to release additional military assistance, 
these considerations become all the more important.
    Again, Mr. Chairman, I thank you for holding this hearing. 
And I look forward to hearing from our witnesses and discussing 
these issues today.
    Mr. Hastert. I thank the ranking member, Mr. Barrett. Now I 
turn to one of our senior members in this committee and also 
the chairman of the International Relations Committee, Mr. Ben 
Gilman from New York.
    Mr. Gilman. Thank you, Mr. Chairman. I want to commend you 
and Chairman Burton for arranging this very important meeting 
involving our battle against illicit drugs. In a recent poll by 
the Chicago Council on Foreign Relations, 85 percent of the 
American people expressed the view that the most important 
foreign policy goal of our Nation ought to be stopping the flow 
of illegal drugs into our Nation from abroad.
    The American people in their infinite wisdom are far ahead 
of many in our State Department on one of the post-cold war 
challenges and threat to our Nation today--illicit drugs. In 
our local communities, our constituents witness firsthand the 
vast destructive impact from these illicit drugs from abroad. 
They expect their Federal Government to take the lead in 
stopping these destructive drugs from ever entering our Nation.
    Overall, the annual societal cost for illicit drugs 
according to the Vice President's Office--and I think it's 
highly conservative--is a $67 billion figure. I think it's much 
more. Heroin is a good example of the need for greater foreign 
policy focus on illicit drugs, especially in our own 
hemisphere.
    DEA Administrator Tom Constantine recently told a Senate 
subcommittee, ``Colombian trafficking organizations are now 
providing free samples of South American heroin as part of 
their cocaine transactions in order to introduce users to their 
high potency and relatively inexpensive product.''
    The Boston Globe reported in June 1997 in their magazine 
article on soaring New England heroin use, much of which is now 
low-priced heroin from Colombia. The Boston police 
superintendent in that same article said that eventually these 
Colombian drug dealers ``are going to cut the purity and up the 
price. And that's when the violence is going to really 
ignite.''
    Supply from abroad is being used to create increased drug 
demand here at home. The administration has been unable to cope 
with the narcoguerrilla crisis in the low plains of southeast 
Colombia where cocaine is produced--80 percent of the world's 
supply. It's even less likely to be able to fight the soaring 
opium production in the higher elevations of the Andes intended 
for eventual heroin production.
    In the United States, 60 percent of the heroin now seized 
originates in Colombia. We're certainly at risk from that area. 
The ill-advised decertification of Colombia 2 years in a row 
without a national interest waiver has cut the lifeline for our 
allies in the professional antidrug police, the Danti.
    These real drug fighters are sorely in need of ammunition, 
of explosives, helicopter spare parts, and chopper upgrades 
along with armaments. They need equipment and supplies 
essential to fight the better-armed and often better-financed 
narcoguerrillas who take in, by some U.S. Government estimates, 
some $60 million per month from the illicit drug trade.
    These security forces are our best, last hope before these 
deadly poisons hit our streets, infect our schools, and destroy 
our youth. The administration has let them down and the 
American people have been let down by this approach. Along with 
many of my colleagues, we have serious concerns surrounding the 
crisis situation in Colombia today, and especially the 
unconscionable 614 waiver delays.
    Mr. Chairman, thank you for taking the time to raise the 
public's consciousness with regard to these problems.
    Mr. Hastert. I thank Chairman Gilman. And we're going to 
recess for about 15 minutes. We'll be right back as soon as we 
get this vote off.
    Mr. Gilman. Mr. Chairman, I ask that my June 5 letter to 
Secretary Albright be included in the record on heroin 
production.
    Mr. Hastert. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Recess.]
    Mr. Hastert. At this time I'd like to introduce our 
witnesses. First of all, Myles Frechette is the current United 
States Ambassador to Colombia. Jeffrey Davidow is the Assistant 
Secretary of State for the State Department's Bureau of Inter-
American Affairs. Jane Becker is the Acting Assistant Secretary 
for the State Department's Bureau of International Narcotics 
and Law Enforcement Affairs. Jim Thessin is the Deputy Legal 
Advisor for the Department of State Office of Legal Advisors. 
Robert Newberry is the Department of Defense Principal Director 
for Drug Enforcement Affairs. Mr. Donnie Marshall is the Chief 
of Operations at the Drug Enforcement Administration, and Henry 
Hinton is Assistant Comptroller General for the General 
Accounting Office.
    I thank you all for being here today. In accordance with 
House rules, we will ask to swear you in. And I ask that you 
please stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
answered in the affirmative and Ambassador Frechette, please 
proceed with your testimony.
    Mr. Davidow. Congressman Hastert, if it would be all right, 
I could go first and then proceed to Mr. Frechette and Ms. 
Becker. But it's up to you.
    Mr. Hastert. Fine.
    Mr. Davidow. OK. Fine. Thank you very much.

 STATEMENTS OF JEFFREY DAVIDOW, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF INTER-AMERICAN AFFAIRS, DEPARTMENT OF STATE; MYLES 
   FRECHETTE, UNITED STATES AMBASSADOR TO COLOMBIA; JANE E. 
  BECKER, ACTING ASSISTANT SECRETARY, BUREAU OF INTERNATIONAL 
NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT OF STATE; JIM 
    THESSIN, DEPUTY LEGAL ADVISOR, OFFICE OF LEGAL ADVISOR, 
DEPARTMENT OF STATE; ROBERT NEWBERRY, PRINCIPAL DIRECTOR, DRUG 
 ENFORCEMENT AFFAIRS, DEPARTMENT OF DEFENSE; DONNIE MARSHALL, 
CHIEF OF OPERATIONS, DRUG ENFORCEMENT ADMINISTRATION; AND HENRY 
    L. HINTON, JR., ASSISTANT COMPTROLLER GENERAL, GENERAL 
                       ACCOUNTING OFFICE

    Mr. Davidow. I have a very brief statement which I will 
make even more brief because I can see that you want to get to 
the business at hand. I'm pleased to be here today with you and 
my colleagues from DOD, DEA, and the State Department, all of 
whom are prepared to answer your questions and testify in a way 
that I hope will relieve you of the misimpression which you 
stated that the Department of State or other government 
agencies are engaged in some form of purposeful obstruction in 
promoting cooperation with Colombia on narcotics.
    Counternarcotics cooperation with Colombia is a complex 
issue, providing policymakers and implementers with difficult 
choices. As you know, the administration has, for the past 2 
years, determined that the Government of Colombia has not 
cooperated sufficiently with the United States to warrant 
certification as defined by section 490 of the Foreign 
Assistance Act of 1961.
    My colleagues and I are prepared to discuss the reasons for 
those determinations, but today I prefer to focus on how, 
within the context of decertification, we can continue to work 
cooperatively with elements of the Colombian Government, 
security services, and civil society to fight the narcotics 
traffickers.
    There can be no doubt as to the seriousness of the problem, 
which you have eloquently stated. There is a tidal wave of 
illegal narcotics flowing into the United States by land, air, 
and sea, inflicting damage on the health and productivity of 
our citizens, beleaguering our law enforcement and judicial 
systems.
    President Clinton and this administration are dedicated to 
confronting the narcotics traffickers abroad and at home. There 
can be no doubt about the valor and dedication of Colombian law 
enforcement officials cooperating with the United States in the 
battle to stem the flow of drugs from their country by 
eradicating illegal crops, destroying laboratories where drugs 
are produced, smashing the cartels which control the flow of 
drugs to consumer countries, disrupting financial transactions 
which launder illegal drug profits, and bringing to justice and 
imprisoning those engaged in this insidious trade.
    It is also important to recognize, as you have, Mr. 
Chairman, the efforts of many other Colombians, common 
citizens, organizations such as the flower growers. In fact, I 
think that the majority of Colombia's citizens recognize the 
seriousness of the problem, are embarrassed and ashamed by 
their country's involvement in it, and who wish to see Colombia 
cleansed of the scourge of illegal narcotics.
    The United States and all those who fight the drug trade 
are not without allies inside Colombia. You met many of them 
when you visited. Not just Colombian law enforcement agencies 
such as the Colombian national police, but also other public 
officials and private citizens who, with great courage and 
dedication, have joined the battle against narcotics. These are 
people who, in many cases, live under the constant threat of 
reprisal.
    The Colombian Government has in fact made progress during 
the last year. It is important to acknowledge its achievements. 
But more needs to be accomplished. The United States has called 
on the Colombian Government to enforce the laws it has passed, 
and to take further steps on controlling prisoners, eradicating 
illicit crops and extraditing kingpins. Specifically, we would 
like to see the extradition of Colombian nationals now 
prohibited or said to be prohibited by the constitution, 
including the Cali kingpins.
    We would like to see the full implementation of laws on 
asset forfeiture, money laundering and sentencing as well as 
our bilateral agreement on maritime law enforcement. We'd like 
to see tightened prison security to prevent traffickers from 
carrying out their operations from prison. We'd like to see 
more effective use of herbicides and eradication operations. 
And we would like to see efforts to bring corrupt officials to 
justice.
    As important as an all-out-effort is to combat the 
production and trafficking of illicit drugs, it is also 
imperative to state clearly that the United States cannot 
unequivocally and unqualifiably support all actions another 
government undertakes if such action may violate human rights 
of others.
    Clearly Colombia's situation is unique in many ways. It has 
a very long history of violence. Guerilla organizations are 
active and well-funded. Many are little more than bandits 
selling their services to the highest bidders, including to 
narcotics traffickers. There is a growing and troubling 
paramilitary movement.
    All of these factors give Colombia its singularity today in 
our hemisphere. Yet, at the same time, we express around the 
world concerns about protection of individual rights, the need 
to confront criminality without succumbing to it, the obvious 
lesson that abuse of human rights leads to loss of governmental 
credibility, not greater governmental control. All of these 
concerns argue for us to maintain the highest levels of 
accountability when we provide assistance to the Colombian 
security forces. The United States Government has a full 
program of cooperation with the Colombian national police, whom 
you, Mr. Chairman, recently praised for their high morale and 
outstanding record of success. In addition, the United States 
wants to cooperate with the Colombian military services and 
support those services while enabling us to ensure Congress and 
the American people that United States assistance is not being 
used in a manner fundamentally incompatible with our own values 
and beliefs.
    Currently, we are seeking to utilize special authorities to 
increase our assistance and make it more effective. We have 
delivered defense articles to the Colombian national police 
under section 506A of the Foreign Assistance Act and will 
provide such equipment to the military forces as soon as we can 
reach agreement on human rights end use monitoring provisions.
    We will consult with the Congress this week on the 
President's use of this Foreign Assistance Act section 614 
authority to enable us to utilize foreign military financing 
and international military education and training funds, which 
have been frozen by decertification.
    Regrettably, we cannot always move as fast as we would like 
as a government. This is especially the case when dealing with 
complex issues with a foreign government which is itself prone 
to bureaucratic delays, frequent personnel changes, and 
consequent shifts in policy. Our efforts are continuing.
    Mr. Chairman, in conclusion, neither the United States nor 
Colombia nor any other country acting alone could adequately 
confront the traders and traffickers in the poison that 
contaminates our society. Together, however, we can build the 
kind of unified effort that is both well-integrated and 
effective.
    Thank you very much for your demonstrated commitment on 
this issue. I'll be glad to answer any questions you and your 
colleagues may have. Thank you.
    [The prepared statement of Mr. Davidow follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Secretary Davidow. At this time I'd 
like to entertain a statement by our chairman of the full 
committee, Mr. Burton of Indiana.
    Mr. Burton. Thank you, Mr. Chairman. I'd like to commend 
the Colombian national police and military for their efforts in 
the war on drugs. Without the guidance and leadership of 
General Serrano, Director of the CNP Gallego, Commander of the 
CNP's Danti or counternarcotics unit, and General Harold 
Bedoya, chairman of the military joint chiefs, the defeat of 
the Cali and Medellin cartels would not have happened. Their 
strategy, along with the cooperation from civilian elements of 
the Colombian Government, has produced proven results even in 
the face of 2 years--2 years--of decertification by the Clinton 
administration, even though many of us in Congress oppose that.
    It is important to note that the Colombians have made 
significant progress with extremely limited United States 
assistance. I ask, where is the Clinton administration's 
resolve and determination here? If the administration were 
serious about the war on drugs, they would not have decertified 
Colombia without a national interest waiver or as a show of 
good faith, at least signed the 614 Presidential waiver, as 
promised more than 3 months ago.
    Now, Mr. Davidow, you just said that they were going to 
consider that. The President promised to sign that 3 months ago 
and it hasn't been signed. The decertification has harmed the 
very elements we need to help. And despite that the morale of 
the CNP has never been greater.
    It is unfortunate that the Congress has had to fight tooth 
and nail with the administration, from the State Department to 
the United States Embassy and our Ambassador in Bogota, in an 
attempt to try to get some form of assistance down to the brave 
people who are fighting the war on drugs.
    It's hard to tell with whom the blame lies for this apathy 
toward taking a stand in this fight. But it may lie at the 
Ambassadorial level in Bogota. One question is, has the Embassy 
in Bogota on numerous occasions and the Ambassador himself 
misled, misinformed, and otherwise been a hindrance to members 
of this subcommittee, to me as chairman of the full committee, 
and to members of our staffs?
    Almost a year ago, after Chairman Hastert returned from 
another codel, the Congress funded and directed the State 
Department to add an additional 15 DEA personnel to the country 
team in Colombia. In May, when Chairman Hastert was in Bogota, 
apparently Ambassador Frechette had yet to have any of these 
special agents in place.
    I talked to him on the phone in Bogota just recently, and 
he told me that 8 of them had been assigned--8 of the 15. I 
have since found that it wasn't eight new agents, it was four 
new agents and four replacements. So out of the 15 additional 
agents we talked about, only 4 have been replaced, even though 
the Congress demanded that be done.
    I personally called Ambassador Frechette to inquire why he 
had not added these agents as directed by Congress. And, as I 
said, he told me that they had been replaced, but they hadn't. 
I'd like to ask the Ambassador how many new agents are going to 
be added in the near future. I hope that you'll tell us today 
that the total of 15 will be added very quickly.
    For more than a year, Chairman Ben Gilman, myself, and 
Chairman Hastert have been pressing the Clinton administration 
to provide more UH-1H helicopters to the Colombian national 
police for use in their eradication efforts. After months of 
repeated assurances by the State Department and other 
administration officials, Chairman Hastert's recent codel found 
that none of the helicopters had been delivered until the day 
before the codel arrived in San Jose del Guaviare.
    Ambassador Frechette indicated he was withholding the 
delivery of the helicopters until he could get a new human 
rights pledge from the Colombian army. I'm happy to note that 
all these helicopters are now flying eradication missions. 
Unfortunately, several of them have already been shot at and 
hit by narcotraffickers.
    I can only wonder why Ambassador Frechette was so reluctant 
to provide these much-needed assets. We have provided these 
helicopters to the CNP for their use in fighting the war on 
drugs. When they get the helicopters, the State Department has 
stripped them of even the simplistic gun mounts needed to 
protect them during their eradication runs.
    It cost the CNP about $100,000 to get these helicopters in 
flying condition. But the CNP only has M-60 machine guns to 
protect the helicopters. The M-60's are ineffective against the 
better-armed narcoguerrillas. What they need to protect the 
helicopters are rapid fire miniguns. And that has been 
languishing for so long in the bureaucracy.
    The miniguns have been promised to the CNP by the Clinton 
administration for more than 3 years. During those 3 years 
there have been more than 1,000 brave CNP officers killed and 
many helicopters shot down. These tragedies may have been 
avoided if the CNP had the right equipment to protect itself 
against the better-armed narcoguerrillas, who are getting 
tremendous amounts of money, as you know, from the sales and 
protection of the drug cartel.
    Ambassador Frechette and the Embassy staff in Bogota appear 
to have resisted sending the miniguns to the CNP at every turn. 
The State Department misinterpreted U.S. law that no lethal 
assistance can be provided. However, the law specifically 
permits lethal assistance if it is to protect assets such as 
these helicopters.
    Currently, the CNP has less than a 2-week supply of 
ammunition, which not only hinders the number of missions they 
can complete against the narcotraffickers and the FARC people, 
but also makes the missions they choose to undertake even more 
dangerous because they could very easily find themselves in a 
fight without enough bullets to protect themselves.
    The 506A drawdown package would have provided vital 
ammunition by June 30. The question is: Did Ambassador 
Frechette decide once again to apply the spirit of the Leahy 
law to prohibit the delivery of the much-needed ammunition? The 
State Department's liberal interpretation of the Leahy law has 
no known precedent that I have been able to find.
    In essence, the State Department, for whatever misguided 
reason, is lending its hand to the narcotraffickers by delaying 
and prohibiting the assistance Congress has requested, 
directed, and asked the administration to provide the 
Colombians in their efforts to fight the war on drugs.
    I am glad to see the witnesses from the State Department 
here today so that we can get a better understanding of their 
rationale for these actions.
    Mr. Chairman, let me just add one additional thing. 
Finally, I would like to call the Congress and the world's 
attention to the hostage situation in Colombia. There are 
currently six American citizens being held hostage by the FARC 
guerilla organization in Colombia. Three of them are 
missionaries who have been held since 1993. They are the 
longest-held American hostages anywhere in the world.
    Their families come from modest backgrounds and do not have 
the money to pay the astronomical ransom requested by the FARC, 
which requested $5 million for each one of them. The press 
corps has not publicized this. The administration has not made 
a high priority to attempt to find and bring home safely these 
Americans. I think it's high time the international community, 
starting with our own State Department, start pressuring the 
FARC to release these Americans and all of their other 
hostages.
    It is shameful that there has not been a public outcry over 
this. The media and the State Department and everybody 
concerned ought to be to blame for this. I want to assure the 
families of these hostages that I, and I'm sure Chairman 
Hastert, are going to do everything in our power to do whatever 
we can as Members of Congress to secure the release of their 
family members.
    We never hear debate by the human rights groups in Colombia 
about the human rights of these Americans who have been dragged 
through the jungles of Colombia for years now, nor do we hear 
anything from these human rights groups about the thousands of 
CNP and Colombian military who have been murdered by guerilla 
groups who long ago abandoned their Marxist ideology for the 
enormous profits of the drug trade. Thank you, Mr. Chairman.
    Mr. Hastert. Thank you, Mr. Chairman. All Members will have 
the ability to submit their opening statements to the record. 
At this time, Ambassador Frechette.
    Ambassador Frechette. Good afternoon, Mr. Chairman and 
members of the subcommittee. Much of what I will tell you today 
about bilateral counternarcotics cooperation will be familiar 
to those of you who visited Colombia a few weeks ago. However, 
it's an important subject and can bear some repetition.
    As Ambassador to Colombia for the last 3 years, I have 
focused on several key policy areas. Increased counternarcotics 
cooperation has, of course, been of primary importance. Other 
significant issues include trade and investment, human rights, 
the environment, and the Summit of the Americas process.
    I have also worked on a host of other issues, including 
kidnapped Americans. But I have devoted most of my time to the 
major areas I mentioned a moment ago. Today I am glad to report 
that some very important advances have been made, particularly 
in counternarcotics cooperation. I wish to share credit for 
these accomplishments with my country team, which is reputed to 
be the finest counternarcotics team in the region.
    The Government of Colombia has made a solid commitment to 
eradicating illicit drug crops. This effort was begun in late 
1994, and it's been strengthened with each passing year. The 
eradication program has reached the point where American 
citizens, pilots, and more United States-supplied equipment are 
now being used in Colombia, which helps the Colombians to be 
even more effective.
    Another breakthrough came less than 2 weeks ago when the 
Colombian Government approved testing, the second of two 
granular herbicides. As you will recall, Mr. Chairman, this was 
an issue that was raised at my residence with the foreign 
minister and with you the evening of May 26. With the help of 
the U.S. Government, tests of both of these will be conducted 
to determine their relative efficacy and cost. As many 
subcommittee members already know, granular herbicides have the 
potential to be much more lethal to coca plants than the liquid 
herbicides currently used.
    Probably the most visible accomplishment, at least in terms 
of press coverage, was the incarceration in 1995 and 1996 of 
all of the Cali cartel kingpins. They remain in jail, with the 
exception of Jose Santa Cruz Londono, who was shot to death by 
the police after escaping from a maximum security prison in 
1996.
    Grabbing fewer headlines but equally important has been the 
noticeable improvement in cooperation between the Colombian 
national police and the United States in recent years. The 
process of bilateral cooperation in general has also become 
more transparent. I have made a great effort to encourage 
Colombian authorities to speak openly about and acknowledge 
their desire for bilateral cooperation.
    Now, the director of the national police, the prosecutor 
general and other high-ranking Colombian officials talk openly 
about cooperating with U.S. Government agencies. I would like 
to note that one of my first challenges as Ambassador to 
Colombia was to ensure that General Serrano, who had just been 
sent to Washington as police attache, be instead brought back 
to Colombia to serve as the director of the Colombian national 
police.
    This was a wise decision. All Colombians as well as the 
international community recognize he has been an indefatigable, 
honest, and implacable enemy of narcotrafficking. At several 
points in 1995, Mr. Chairman, President Samper and several of 
his cabinet members stated publicly their intention to expel 
the DEA from Colombia or to limit their activities so severely 
as to make them useless. This is a matter of record. It's in 
the press in Colombia.
    I'm glad to tell you that my personal efforts successfully 
countered those attempts. As a result, the DEA is now accepted 
in Colombia as a friendly force whose expertise is valued and 
acknowledged by Colombian counterparts.
    In 1996 and 1997 Colombian legislators passed long overdue 
laws on asset forfeiture, money laundering, and sentence 
lengthening. These measures, although not as tough as American 
laws by a long shot, meet international standards, as required 
by the Vienna Convention, against drugs. These laws increased 
Colombia's ability to hit the narcos where it hurts the most--
their illgotten wealth and their benefiting from ridiculously 
low sentences which have outraged international opinion.
    In February of this year the United States and Colombia 
signed a maritime shipboarding agreement to combat 
narcotrafficking at sea, an accomplishment that had eluded the 
United States Government for 6 years. While this accord did not 
give us everything that we wanted, it represents a great step 
forward in our joint counternarcotics efforts.
    All of these accomplishments, Mr. Chairman, came about as a 
result of U.S. Government urging and the certification process. 
The national interest waiver in 1995 and the complete 
decertification in 1996 convinced the Colombian Government to 
increase cooperation with the United States. As the 
subcommittee knows, Colombia was again decertified in 1997.
    But as Assistant Secretary Gelbard stated on February 28, 
when that decision was announced, ``Colombia has a chance to 
receive a national interest waiver if it makes progress in a 
number of areas.''
    I have told Colombian Government officials on several 
occasions what these criteria are: using an effective, safe and 
reasonably priced granular herbicide against coca and opium 
poppy, repealing article 35 of the Colombian constitution to 
open the way for the extradition of Colombian nationals, 
including the four major kingpins--that is, returning them to 
the United States so we can put them on trial for their crimes 
against the American people--fully and effectively implementing 
the new asset forfeiture, money laundering, and sentencing laws 
and the shipboarding agreement, tightening prison security to 
prevent traffickers from carrying out their operations from 
jail, and bringing corrupt officials to justice.
    We now await the outcome of Colombian efforts to reverse 
the constitutional prohibition on extraditing Colombian 
nationals. If Colombia achieves this and, once again, honors 
our existing bilateral extradition treaty, it will have met 
most of the major requirements of the Vienna Convention, which 
Colombia signed and its Congress ratified several years ago.
    Regarding extradition, I should note that Colombian 
narcotraffickers managed in the late 1980's and early 1990's to 
convince the Colombian lawmakers who reformed Colombia's 
constitution in 1991 that they should be punished--that is, 
they, the narcotraffickers--should be punished in Colombia and 
not abroad.
    This argument, of course, missed the point. Criminals 
should be punished in the country where they perpetrated their 
crimes. Moreover, at the time that the narcotraffickers 
successfully advocated this point of view, Mr. Chairman, 
Colombia had some of the weakest penalties for narcotrafficking 
in the hemisphere.
    With our help, they have brought their laws up to 
international standards. And in order to consolidate a fully 
cooperative relationship with the Colombian Government, the 
United States must be able to try the Cali kingpins and other 
narcotraffickers who have done so much damage to the American 
people.
    Of course, the laws I mentioned earlier have not yet been 
fully implemented. The proof is in the pudding, Mr. Chairman. 
That will be the next test of Colombia's commitment to 
combatting narco-trafficking. Colombia has many exemplary laws 
on paper. What we're interested in now is seeing them put into 
practice. As I told you, Mr. Chairman and other members of the 
subcommittee who recently visited Colombia a few weeks ago, 
Colombia needs systemic improvements that go far beyond law 
enforcement.
    Colombia needs stronger laws. It needs better trained 
police and investigators. It needs stricter controls on jailed 
narcotraffickers, who continue to run their businesses from 
their cells. And it needs an end to corruption, particularly 
official corruption.
    We are willing and ready to help them achieve these goals. 
Since the chairman and his colleagues visited Colombia, the 
government has taken the important and frankly long overdue 
step of approving the testing of additional granular herbicide, 
as I mentioned earlier.
    In sum, Colombia has accomplished a great deal in terms of 
bilateral narcotics cooperation, but usually as the result of 
consistent and untiring urging by the United States. Colombia 
must do more, Mr. Chairman, for its own sake. Thank you.
    [The prepared statement of Ambassador Frechette follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Mr. Ambassador. It's the intent of 
this subcommittee to roll and keep this subcommittee in session 
through the vote. So if anybody would like to vote and come 
back, they're welcome to do that. At this time I'd like to 
recognize Acting Assistant Secretary Becker. Welcome.
    Ms. Becker. Thank you, Mr. Chairman and members of the 
subcommittee. This hearing provides an extremely useful forum 
to give an update on the administration's comprehensive illegal 
narcotics control efforts in Colombia. Before I provide a brief 
overview of my testimony, which I would submit for the record, 
with your permission, Mr. Chairman, I'd like to thank you 
personally, Mr. Chairman, for your strong support of the 
administration's counter-narcotics policy and programs.
    I know you and several other members have longstanding 
personal interest in these issues, having recently visited 
Colombia and other key Latin America countries, and you're 
familiar with the enormous challenge that faces us all. And I'm 
certain that you appreciate our unswerving determination to 
advance a lasting solution to the problem of illegal drug 
availability in our country.
    For the past 2 years, the President denied full narcotic 
certification for Colombia. As Secretary Albright said at the 
time of the announcement, ``Denial of certification of Colombia 
was aimed at the senior levels of the Colombian Government, as 
cocaine and heroin continue to flow unabated from Colombia into 
the United States.''
    While fully implementing the intent of the law, denial of 
certification for Colombia had the unfortunate effect of 
cutting off significant foreign military financing funds--
that's FMF--and international military education and training--
IMET--funds for counternarcotics purposes.
    As is crystal clear, the Colombian Governmental units which 
receive these categories of United States support desperately 
need assistance for their important drug interdiction and crop 
control efforts. We worked closely last session with the 
Congress--unfortunately unsuccessfully--in order to amend 
section 490 to allow for continuation of critical 
counternarcotics FMF and IMET.
    To draw upon the President's authority offered under 
section 614 of the Foreign Assistance Act to enable assistance 
to go forward despite existing legal bars, the administration 
is initiating this week formal consultations with the Congress 
to provide Colombia up to $30 million and up to $600,000 in 
frozen FMF and IMET, respectively.
    The President's authority under 614 is not taken lightly. 
Its use now is against the backdrop of our overwhelming 
national security interest to ensure that our support for 
honest Colombian antidrug efforts is unimpeded. Moreover, our 
counternarcotics interest in Colombia must be in concert with 
other policy objectives.
    In this instance, I refer to respect for human rights. 
Republican or Democratic, consecutive administrations for more 
than two decades have made human rights a cornerstone of U.S. 
foreign policy. Let me elaborate on that point with reference 
to Colombia.
    Before approaching Congress to discuss the 614 waiver, our 
Embassy in Bogota has worked tirelessly for the better part of 
a year to secure end use monitoring agreements, including 
proper commitments on human rights, which we require from the 
various elements of the police and military. This linkage that 
we make between human rights and narcotics assistance has only 
been reinforced by the amendment to our appropriations law 
enacted last year which specifically ties the two together to 
prohibit provision of assistance to units of security forces if 
the Secretary of State finds credible evidence of gross 
violations of human rights.
    In February of this year we sent detailed instructions to 
our posts worldwide to ensure that the requirements of that 
amendment are met. In our relations with Colombia we have 
always worked from the premise that our human rights interests 
must be applied across the board. We have taken great care to 
ensure proper balance on the range of foreign policy objectives 
we seek with Colombia.
    Unfortunately, while we thought we were close to acceptable 
end use monitoring language on a number of occasions over the 
past 6 months, we have been frustrated when the Colombian 
Government has repeatedly backed off. I reiterate: we will not 
provide FMF or IMET set-asides for any entity in Colombia 
absent its agreement to the assurances that we seek.
    To combat the narcotics scourge, we need an effective 
partnership with those Colombian officials who are as dedicated 
to fighting it as we are. Through your trip to the field, you 
and other members know about our efforts in Colombia. 
Nevertheless, I think it would be useful to give a quick recap 
of what we have done and are trying to do in addition to the 
614 waiver.
    First of all, counternarcotics funds for Colombia from my 
bureau alone amount to close to $400 million since 1972. Using 
DOD drawdown authority, we are providing $40.5 million to 
Colombia for use by the Colombian national police and the 
Colombian armed forces to operate against heavily armed 
narcotraffickers.
    For the Colombian police, this drawdown includes 12 
additional utility helicopters, flight crew and police field 
gear, two C-26 surveillance transport aircraft, communications 
equipment and other items. The 12 UH-1H helicopters were 
delivered on May 17. The 5.56 millimeter ammunition is 
scheduled for delivery this week. From the 506 package the 
Colombian military will receive 3 Boston Whalers, 6 river 
patrol boats, 1 utility landing craft, 20 UH-1H helicopter 
hulks for salvage parts, 3 C-26 surveillance transport 
aircraft, and substantial amounts of additional technical 
equipment.
    The six river patrol boats and the UH-1H hulks for salvage 
parts arrived in Colombia on May 17 but have not been turned 
over to the Navy and Air Force pending completion of a 
satisfactory end use monitoring agreement. Since October 1996 
the Department has deployed three additional T-65 aircraft to 
Colombia, provided four OV-10 aircraft, and brought in 
additional fixed wing assets and search and rescue helicopters.
    To augment support for eradication this year, U.S. 
contractor personnel have been increased. That includes 
security specialists, pilots, mechanics, operations advisors 
and search and rescue teams including medics, who have provided 
assistance to CNP members who are injured in the course of 
their duties.
    Over the years, United States support to the Colombian 
police has outstripped that supplied to any other comparable 
antidrug unit in the world. In 1997 we have doubled our 
assistance, mostly to the antinarcotics police, to $44 million 
as compared to $22.6 mil- lion in program and aviation 
assistance in 1996.

    These figures represent INL program funds alone and do not 
in- clude transfers of equipment by INL or under 506(a)(2) 
authority. There was an additional $100 million in equipment 
transferred thus far this year. Part of this increase makes up 
the shortfall in equipment purchases as a result of the frozen 
FMF after denial of narcotic certification. And the additional 
United States assistance also fills the void in funding for the 
CNP, which was inexplicably withdrawn by the Colombian 
Government.

    I don't want to repeat what's already been said with regard 
to our overall broad policy toward Colombia. That was covered 
by Am-
bassador Davidow and Ambassador Frechette with regard to 
counternarcotics. We are very pleased, however, that the Colom-
bian Government has agreed to test granular herbicides against 
coca.

    Based upon prior USDA tests, we are confident that testing 
in Colombia will show a granular chemical can be used safely 
and ef-
fectively throughout the year, especially during the rainy 
season. The granular herbicide also supports safety 
considerations. We are also pleased that the granular 
herbicides are being tested, because we believe that they will 
prove significantly more effective against the opium poppy crop 
than liquid herbicides, because opium poppy, as you know, can 
be replanted immediately after spraying, whereas a granular 
herbicide stays in the soil and precludes that field from being 
used for some period of time.

    On the maritime agreement, we are pleased with ad hoc 
coopera-
tive shipboarding procedures, but still expect a much more 
serious effort to implement the accord by allowing U.S. assets 
to conduct sea and air detection and monitoring. With regard to 
prison secu-
rity with the CNP now in charge, escape attempts are reportedly 
being thwarted and quantities of communications in computer 
equipment have been confiscated.

    A great deal of work remains for the Colombian Government 
in the legal areas mentioned by Ambassador Frechette. We have 
seen little effort, also, to support investigations and 
prosecutions by the prosecutor general's office to ensure that 
corrupt officials are brought to justice.

    Progress in extradition remains the most problematic area 
in our bilateral drug control efforts. Although the extradition 
bill has com-
pleted the first of several rounds in Congress, there are many 
de-
tails to be settled, among them the issue of retroactivity, 
which is key to the transfer to American soil of four of the 
most prominent Colombian traffickers wanted by United States 
prosecutors. We're worried about the outcome.

    However, through an extradition and through all our 
counternarcotics programs in Colombia we will continue to press 
the government and provide practical support to those honest 
seg-
ments of government and security forces in society that are re-
solved to overcome the traffickers' corrupting influences.
    I see that the red light is on, Mr. Chairman, and I don't 
want to--pardon me?
    Mr. Hastert. You can summarize and finish your statement. 
You have plenty of time.
    Ms. Becker. Thank you, Mr. Chairman. Despite our efforts to 
rapidly expand support for the CNP's eradication efforts during 
the past year, coca cultivation in Colombia has almost tripled 
since 1987. This worrisome trend, the result of a variety of 
complicated political and practical factors, represents one of 
the greatest challenges the Colombians and Americans face to 
stamping out the drug trade.
    It reflects an overall lack of political commitment at the 
senior level to take strong measures against narcotics 
trafficking or to fully support those Colombians who are, such 
as the prosecutor general and the CNP. I should also note that 
because of the successful activities in neighboring countries 
to interdict product, there has been a balloon effect, and we 
believe that that's one of the reasons why there has been an 
increase in cultivation in Colombia.
    On a more positive note, our collaboration with the CNP has 
resulted in the stabilization of the Colombian opium poppy crop 
to about 6,400 hectares, thus stemming the flow of cheap 
Colombian heroin to our country.
    To carry out the programs that we've described here as well 
as others and maintain the momentum we have achieved, we are 
extremely grateful for this subcommittee's abiding support, 
especially for our funding request this year for $230 million, 
which includes a $17 million increase over fiscal year 1997. In 
fact, our fiscal year 1998 request represents only about 1 
percent of our entire national budget to counter the drug 
threat.
    At the same time, as our U.S. National Drug Control 
Strategy makes clear, domestic initiatives are threatened 
unless they are bolstered by a solid U.S. foreign effort and 
significant multilateral support, which we are endeavoring to 
do.
    The increasing sophistication of criminal elements in 
Colombia and elsewhere must be matched and suppressed. 
President Clinton has repeatedly stressed the importance of 
combatting drugs and crime in the context of our national 
security. Aggressive policies and programs, sufficient 
financial backing and consolidated efforts at home and abroad 
must be sustained to meet the challenges we face.
    We look forward to working with you, Mr. Chairman, and with 
this subcommittee in order to achieve these very important 
results for our citizens. Thank you, and I'll be very happy to 
answer any questions that you and your colleagues have.
    [The prepared statement of Ms. Becker follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Ambassador Becker.
    Mr. Thessin.
    Mr. Thessin. Thank you, Mr. Chairman. I welcome the 
opportunity to provide a broad outline of the Department's 
approach to GAO requests for information. These principles 
guided the Department in responding to the GAO's request in the 
current case. Let me emphasize a few points.
    First, the Department is committed to working with the GAO 
to provide it with the information it needs to perform its 
responsibilities in support of Congress. The Department 
attempts to respond promptly to GAO requests. But such matters 
as the complexity of the request and the volume of the 
materials may slow this process.
    Second, releases of information to the GAO must take 
account of the executive branch's legitimate interest in 
protecting national security, preventing compromise of law 
enforcement efforts, and preserving the candor of its 
deliberative processes.
    For example, advisors may temper their advice to avoid 
criticism if they fear their recommendations will be disclosed 
to the detriment of the decisionmaking process.
    Third, the Department works to fashion practical solutions 
that accommodate the needs both of the GAO for information and 
of the Department to protect its interest in that information. 
Accommodations may involve such procedures as redaction of 
confidential sources, summaries of sensitive information and 
limitations on access.
    If one approach is deficient, the Department is prepared to 
discuss alternative methods to meet GAO's needs. My colleagues 
and I stand ready to answer any questions the subcommittee may 
have on document matters. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Thessin follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Mr. Thessin.
    Mr. Newberry.
    Mr. Newberry. Mr. Chairman, members of the subcommittee, 
thanks for this opportunity to appear before you and address 
your questions about the Department of Defense's support to our 
Nation's effort to stop the flow of illegal drugs.
    Mr. Hastert. Mr. Newberry, would you pull the mic up so we 
could hear you a little clearer.
    Mr. Newberry. Sure. How's that? Although we support both 
domestic and foreign law enforcement programs in the United 
States, Latin America and Asia, I understand this hearing will 
focus on activities in Colombia and possibly other areas in 
Latin America.
    As you're aware, we have a variety of counterdrug 
activities ongoing in Colombia to include training, 
intelligence collection, providing target packages, detection 
and monitoring of air trafficking, joint planning, and 
assistance teams.
    Additionally, as you alluded to, we are currently seeking 
new limited authority that will allow the Department of Defense 
to enhance the capabilities of foreign nations by procuring and 
transferring equipment and to providing spare parts and 
maintenance support for that equipment. I certainly welcome all 
the support that this committee can provide to successfully 
pass this legislation.
    With that short summary, I'm prepared to answer any 
questions you have on our support to Colombia. Thank you.
    [The prepared statement of Mr. Newberry follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Mr. Newberry.
    Mr. Marshall.
    Mr. Marshall. Mr. Chairman, members of the subcommittee, I 
thank you for the opportunity to appear here today to discuss 
the efforts of the Colombian national police and the Colombian 
military in our joint antinarcotic efforts. I'd like to thank 
you and the subcommittee for your continued support of our 
antinarcotic program. I know that you recently traveled to some 
of the source countries where you saw firsthand some of the 
initiatives that are being put into place as a result of the 
budget increases for Andean Ridge in fiscal year 1997.
    As you probably know, the narcotraffickers from Colombia 
seized virtually total control of the cocaine trade in the late 
1970's. The first group to dominate were the organized criminal 
groups headquartered in Medellin, Colombia, which were led by 
violent criminals like Fabio Ochoa, Jose Rodriquez Gacha, 
Carlos Lehder, and one of the most violent criminals in 
history, Pablo Escobar.
    One by one these leaders were brought to justice by the 
Colombian national police. And having had a degree of personal 
involvement in this effort during that era, I can tell you that 
the one thing that these traffickers most feared was being 
brought before the U.S. criminal justice system.
    I believe it was the extradition of Carlos Lehder during 
that era that really resulted in the beginning of the downfall 
of the Medellin cartel. So I can't overemphasize, Mr. Chairman, 
the fact that extradition is in fact a very important tool, as 
you have referred to and a couple of other witnesses here have 
referred to.
    During this campaign to bring down the Medellin cartel, a 
group of young criminals in Cali, led by Miguel Rodriguez 
Orejuela and his brother Gilberto as well as Jose Santa Cruz 
Londono, were then proceeding to build what would become one of 
the most successful criminal enterprises in history. Again, 
through the very courageous leadership of General Serrano, 
Colonel Gallego, and General Bedoyo of the Colombian military, 
Colombian authorities methodically tracked down each of these 
leaders until the entire infrastructure of the Cali mafia was 
either incarcerated or dead.
    But the violence continues even today. On November 4, 1996, 
a van filled with dynamite was discovered outside a chemical 
plant which was owned by a family of the Senator sponsoring a 
bill to lift the ban on extradition of Colombian drug 
traffickers. This was just a few days before the bill was 
scheduled for debate.
    On June 18 of this year 8 Colombian national police 
officers were killed and 12 others were wounded as they tried 
to disarm a powerful truck bomb. And the extraditables--drug 
traffickers--took responsibility for this bombing. The 
Orejuelas have ready access to both pay phones and cellular 
phones in their prison cells, but they are unable to fully 
control their vast empire from their jail cells.
    Organized crime families in Mexico--most notably the 
Arrellano Felix brothers, the Caro-quintero organization, the 
Amesco brothers, and until his death last week, Amado Carrillo-
Fuentes--have formed some very powerful alliances with the 
Colombian drug traffickers.
    An estimated 15 percent of the world's coca leaf is grown 
in Colombia, and the vast majority of cocaine base and 
hydrochloride is produced in laboratories throughout Colombia. 
This cocaine is then either shipped via maritime or aircraft to 
traffickers in Mexico or it is shipped through the Caribbean 
and into the United States.
    Remnants of the Cali group are still being directed by the 
Orejuelas as well as Cali splinter groups who have become 
powerful drug trafficking forces in their own right. There are 
about five or six major groups of this type that we have 
targeted and are actively working, investigating with Colombian 
authorities.
    Adding significantly to the dangers faced by the 
antinarcotic forces in Colombia are the revolutionary armed 
forces of Colombia--or the FARC--as well as the National 
Liberation Army. The CNP helicopters and planes used in drug 
eradication efforts continually receive ground fire from these 
guerrillas when they're conducting counterdrug operations.
    Through the United States Government and DEA's law 
enforcement strategies we have been able to build cases on many 
of the bosses in Colombia as well as the United States based 
infrastructure of these Colombian syndicates. And with the 
assistance of foreign government, we have, in many cases, left 
these organizations in disarray. The central focus of the DEA 
office in Bogota and throughout Colombia is the identification, 
investigation and dismantling of the organized drug syndicates 
in Colombia.
    DEA and the Colombian national police have developed a 
series of programs to enhance these investigations. The 
expansion of the DEA and CNP wire intercept program is critical 
to building criminal cases against the leadership of these 
organizations in Colombia. The recently established information 
analysis and operational center plays a vital role in 
coordinating United States and Colombian information, 
intelligence, and coordinating activities.
    A flow reduction strategy will be extremely effective in 
reducing the movement of cocaine through the source zone. 
Maintaining and improving the investigative capabilities of 
special investigative units of the CNP are critical to our wire 
intercept and other enforcement programs in Colombia. Expansion 
of operations conducted jointly with the CNP is key to locating 
and destroying clandestine laboratories, air strips and storage 
sites.
    An expansion of information collection and investigative 
activities and support of the international emergency powers 
act--or IEPA--and money laundering schemes by Colombian 
trafficker organizations is also vital. The DEA working in 
Colombia with the CNP and domestically with Federal, State and 
local law enforcement counterparts will concentrate on the 
vulnerabilities of these Colombian organizations and their 
Mexican partners.
    First, we will continue to focus our domestic 
investigations on the United States based infrastructure of 
these groups, particularly those in the Caribbean theater, 
south Florida and the southwestern border. Second, we will work 
in Colombia to build cases on the leaders of the new groups 
vying to dominate the cocaine trade as well as direct resources 
against their production and transportation operations.
    Again, I appreciate the opportunity to appear here, and I 
will be happy to answer any questions you might have.
    [The prepared statement of Mr. Marshall follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Mr. Marshall.
    Mr. Hinton.
    Mr. Hinton. Thank you, Mr. Chairman. Chairman Hastert, 
Chairman Burton, Mr. Barrett, members of the subcommittee, as 
requested, I am here today to discuss the problems the General 
Accounting Office has encountered in conducting its review of 
counternarcotics activities in Colombia.
    On March 4, 1997, Mr. Chairman, you asked that we review 
the progress of United States and Colombian efforts to reduce 
drug trafficking activities and influence and any problems that 
exist. Subsequently, the chairman of the House Committee on 
International Relations and the Senate Caucus on International 
Narcotics control also requested that GAO address similar 
issues.
    In response to these requests, we are in the process of No. 
1, reviewing the length of time it took the executive branch to 
determine what assistance would be affected by the 
administration's decertification of Colombia and the subsequent 
impacts of decertification on United States assistance to 
Colombia; No. 2, the status of the proposed $40 million 
emergency assistance package being provided to Colombia under 
section 506A of the Foreign Assistance Act; and, No. 3, the 
planning and implementation of United States antidrug efforts 
in Colombia.
    Mr. Chairman, I have three main points to highlight: First, 
our review has been significantly delayed because the State 
Department has not given us timely and complete access to the 
information we require to address the issues you, Chairman 
Gilman, and Senator Grassley have raised.
    For example, it has taken the Department almost 2 months to 
provide us with the large number of documents that we have 
requested. The Department has established an elaborate process 
for considering our document requests by screening documents 
through multiple time consuming reviews before they are 
released to us. To date, we still have not received 10 of the 
documents we requested.
    I sent a letter to the Secretary of State on June 25 
requesting assistance to break the log jam. I don't know 
whether it was that letter or the scheduling of this hearing, 
but we received a lot of documents last week--last Thursday, to 
be exact.
    Second, the State Department has not granted us independent 
access to documents during this assignment. Based on our 
request, the Department determined what documents we could see 
and what documents would be provided to us. Throughout our 
visit to Colombia, we didn't have independent access to Embassy 
files or to the State Department instructions detailing how the 
Embassy was to provide us documents.
    This is in contrast to other recently completed 
counternarcotic assignments we have conducted for this 
subcommittee in Colombia, Mexico, Peru, Bolivia, and the 
Caribbean. In none of those past assignments, including a 1995 
review of the Colombian counter-narcotics program, did the 
State Department attempt to control our independent access to 
information as they have on this job that we are currently 
doing.
    Third, the Department has denied us access to some 
documents and deleted or redacted information from others. 
GAO's basic authority to access records as contained in 31 
U.S.C. 716. This statute gives GAO very broad rights of access 
to agency records for the purpose of conducting audits, 
investigations and evaluations. I would like to point out that 
there is no exemption for internal working papers or documents 
containing deliberative communications.
    This is a point that has been brought up by the State 
Department to us as reasons for not making documents available 
to us. We believe we have a right of access to these records 
and plan to pursue access to them with the Department.
    In summary, Mr. Chairman, our concern is with the delay 
that we have experienced in obtaining timely and independent 
access to information necessary to respond to your request. 
We're also concerned about the extent to which the State 
Department has controlled our access to all documents.
    We cannot say at this time with certainty that we have been 
provided with all of the information necessary to conduct an 
independent review of United States counternarcotics activities 
in Colombia. Furthermore, while these delays and restrictions 
appear for now, to be limited to this assignment, I would be 
seriously concerned--and I think you would also share that 
concern, Mr. Chairman--if this practice by the State Department 
continues on future GAO work that we undertake for this 
committee and other congressional committees.
    That concludes my statement. I stand ready to address any 
questions you may have.
    [The prepared statement of Mr. Hinton follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you, Mr. Hinton. Let me ask you a 
question: why do you suppose that the information has not been 
given to you? Now, Mr. Thessin says that this is highly 
classified information. Don't all your folks have security 
clearances?
    Mr. Hinton. Yes, sir. I personally approve staffing for 
every one of our jobs. I can assure you that our personnel have 
all the proper security clearances. We have the proper 
facilities to store the documents. We have a very, very good 
track record on the handling of very sensitive documents.
    Mr. Hastert. Now, when I was in Colombia, Ambassador 
Frechette supplied us with a list of cable numbers. And he said 
if we asked for those, we'd be able to get them and review 
them. We passed those on to you to make it a part of the--have 
you had a problem getting some of these cables?
    Mr. Hinton. Yes, sir. We've had problems that have been as 
long as 2 months getting access to documents. And we have a 
pretty good track on everything we have asked for. It's been 
very time consuming. It's been very much laborious on the part 
of the Embassy and State Department. They're going through 
multiple reviews and I don't understand why that is necessary, 
compared to all the past work that we have done.
    It's interesting to note, Mr. Chairman, how this job has 
happened. We basically have identified the files we want to 
review. In the past we received access to all of these files, 
to go through them, then ask the questions of the appropriate 
officials. The way it's worked on this one is that we have not 
had that access. We have had to ask on our own knowledge about 
particular documents. And then the Embassy folks or the State 
Department folks would make the determination themselves as to 
what we should and should not see.
    As the government's independent investigator and auditor in 
this, we can assure ourselves that we've gotten access to 
everything that we need to see to be responsive to your 
request.
    Mr. Burton. Would Chairman Hastert yield briefly?
    Mr. Hastert. I yield to the chairman.
    Mr. Burton. Let me just say to Chairman Hastert and to Mr. 
Hinton that if you're not getting that proper cooperation, if 
Chairman Hastert feels that it's necessary for his subcommittee 
and the full committee to subpoena these documents and records 
that you cannot get access to, we're fully ready, Mr. Chairman, 
to work with you to issue subpoenas, to force the issue if the 
State Department and the Embassy in Colombia doesn't want to 
give those documents to the GAO or to you.
    Mr. Hastert. I thank the chairman for asking and supplying 
that. Ambassador Frechette gave us a list of cables, told us 
those cables would be available to us. And for some reason or 
other we're having trouble getting them. So I would expect the 
Ambassador and the State Department to live up to its 
commitment so--I would hope we wouldn't have to do that.
    Mr. Hinton, is there any reason that you think this might 
happen, why you're having these difficulties?
    Mr. Hinton. I don't have a good answer for that, Mr. 
Chairman. Chairman Burton knows the urgency of this job--when 
he called Jim Hinchman over at GAO to discuss when we would be 
in country. We've taken that very seriously. Before we even 
left, we sent a list of the general documents that the Embassy 
we needed to do the job in country. We did not know we would 
run into a problem.
    When we got down there, they said, ``Well, we can't release 
anything to you, subject to instructions from the State 
Department.'' That happened. Instructions came down.
    Mr. Hastert. Can I ask you a question? Has that ever 
happened to you before in your investigations?
    Mr. Hinton. Not in this area. No, sir. We have not. All of 
our past work, we've had pretty much agreement with the State 
and the missions that we've been to. We've worked very closely 
with the folks. We don't have anything to hold back. In fact, 
what we did when we took documents from the files, we'd also 
make a copy for the people at the Embassy or State so that they 
knew what we had. This time it's the complete opposite of that.
    Mr. Hastert. Let me ask you another question on this. One 
of the things that I understand the documents that you've been 
denied are what we're talking about this granular herbicide 
issue--which kind of a side issue, I think--but the Ambassador 
mentioned a meeting that we had with the foreign minister of 
Colombia. And you're right, Ambassador, you made a statement 
that one of the reasons--and I'm paraphrasing, I can't quote 
you exactly--but one of the reasons we didn't offer the--one of 
the reasons that we had sanctions against Colombia was that 
they didn't use granular herbicide.
    And the foreign minister said at that time, he said, 
``Well, Mr. Ambassador, you had a list of seven granular 
herbicides, and we chose one and after we chose that granular 
herbicide you took it off the list.''
    They have been using herbicides. It's a round up. Basically 
the same thing that my farmers use in the 14th district in 
Illinois to kill weeds and shrubs and bad things that grow. Are 
you having trouble getting those particular cables?
    Mr. Hinton. They were part of the problem. To be specific, 
on May 8 we requested about 115 documents--2 of the cables 
pertaining to that subject were in that request that we made. 
We got a response back from the Department on June 11 with 
about half of the documents. The two cables that we were 
seeking dealing with that subject were not part of the package. 
We were told by State that that had to go through further 
review because of the very sensitive nature of it.
    On July 1, we got another response from State. And they 
faxed over the two cables. They were faxed to us on an 
unsecured line, even though they had previously characterized 
them to us as being very sensitive. So I'm kind of at a loss to 
reconcile why they held off giving those to us and then, in 
turn, released them through the fax.
    Mr. Hastert. Thank you, Mr. Hinton. One of the other issues 
in this whole herbicide issue is that if this was one of the 
main issues for denying certification to Colombia--we also 
visited Bolivia. Bolivia used manual eradication. They went out 
and were chopping this stuff down. Very small use of 
herbicides, and it wasn't granular herbicides.
    Peru hasn't used chemical herbicides until a very short 
time ago. Neither of these countries were denied certification. 
And I'm somewhat stymied. I question why is granular herbicides 
over liquid herbicides when a country is actually going out and 
chemically eradicating and other countries aren't held to the 
standard, and yet this standard is the decisionmaking point. 
Ambassador Becker, you might want to answer that. Why is this? 
It seems inconsistent to me.
    Ms. Becker. Thank you, Mr. Chairman. The laws in Bolivia 
and Peru currently do not allow for aerial eradication. We are 
working with those governments to try to change those laws. In 
Colombia, aerial eradication obviously is permitted. The 
reason--there are two principal reasons for our desire to move 
as quickly as possible in the direction of granular herbicides 
in Colombia.
    The major reason has to do with safety of pilots. Granular 
herbicides can be applied from a significantly higher altitude 
than liquid, and the planes can be going significantly faster, 
making them far less vulnerable to ground fire, which has been 
a continuing problem.
    I should mention, Mr. Chairman, that we are extremely 
concerned about the issue of pilot safety and, in fact, have 
spent a fair amount of resources in trying to improve the 
safety of the Colombia police and the United States contract 
pilots who fly side by side with them both in terms of armoring 
the aircraft and in terms of providing escorts--helicopters and 
surveillance--to ensure that they are not flying into a 
difficult situation that they cannot get out of.
    The second attraction to granular herbicide is that, unlike 
liquid herbicide, it stays in the ground. Liquid herbicide can 
be washed off by rain. Statistically, it rains in Colombia at 
least one 1 of 3 days. So, 1 out of 3--whatever--is applied to 
the plants, is not effective.
    With granular herbicide weather is not a factor. In 
addition, as I indicated in my testimony, granular herbicides 
are also far more effective than liquid herbicides against the 
opium poppy crop.
    Mr. Hastert. Ambassador, it still somewhat puzzles me. Once 
they chose a granular herbicide, the State Department took it 
off the list.
    Ms. Becker. No.
    Mr. Hastert. And, the issue of the--I think--I was on the 
ground. I watched the eradication process take place. I also 
understand the great risk to those pilots, most of them 
Colombian pilots. And we should be worried about those, plus 
the safety of the airplane. But mostly the lives of the pilots. 
Yet we consistently withhold miniguns, which are part of that 
process, that can ensure the life and the safety of those 
pilots. And we've withheld them and not made them possible. 
That was really the issue that will protect the lives of those 
pilots. I will recognize Mr. Barrett at this time.
    Mr. Barrett. Thank you, Mr. Chairman. The first thing I 
want to address is the GAO issue. Mr. Hinton, am I to 
understand that you now have received the documents that you 
requested?
    Mr. Hinton. No, sir. Based on what we requested, we are 10 
shy.
    Mr. Barrett. Ten shy. Ambassador, can you address this, 
please?
    Ambassador Frechette. No, Mr. Barrett, I cannot. This is a 
decision made by the Department of State, as I explained to the 
GAO team when they got down there. They can request the cables 
and the Department of State decides which of them they can 
receive.
    Mr. Barrett. Ms. Becker.
    Ms. Becker. Yes. The entire request from GAO totaled 517 
documents, all of which were multiple pages from multiple 
sources, both from the Department of State and from the Embassy 
in Bogota. The initial request from GAO was in early April. And 
the initial access granted to the documents was--actually the 
dates were April 11, and the first set of documents was made 
available on April 24. That pace of production continued.
    In addition, we unfortunately were unable to identify some 
of the documents for which the GAO provided numbers, because 
the numbers were not numbers that we could identify. To the 
best of our ability, we provided, as quickly as possible and as 
extensively as possible, access to the documents. As was 
indicated in the testimony. And I will ask perhaps for you to 
recognize our legal advisor as appropriate.
    The documents were subject to a review process that is a 
standard review process that is mandated within the Department 
of State's procedures. All documents were made available with 
the exception of one. Four other documents were not made 
available because they contained drafts of information that was 
available in final form through a public source, that is, the 
INCSR--the International Narcotics Control Strategy Report.
    Mr. Barrett. Let me yield at this time to Mr. Blagojevich.
    Mr. Blagojevich. Thank you, Mr. Barrett. Ambassador Becker, 
you were unable to complete your answer on the granular 
herbicide. Why was the granular herbicide taken off of the list 
by the State Department?
    Ms. Becker. The granular herbicide was not taken off the 
list by the State Department. We provided, in the course of 
discussions with the Colombians on the movement to granular 
herbicide, at Colombian request, a list of all the granular 
herbicides that are licensed for use in the United States. 
There are seven.
    The Colombian Government, after deliberations within the 
cabinet level and discussions with us, we thought was going to 
pick--the object of this was to pick a number for testing. They 
picked one, which turns out to be the most expensive and the 
one that requires the most applications in succession in order 
to kill coca plants. So we asked the Colombian Government to--
so we agreed to test that one, but we would also like to test 
an additional herbicide in order to give a comparative view of 
which one was more effective. And, also, we were concerned, 
again, about pilot safety. Having to go back again and again to 
the same field, as we would with the one which was selected, we 
thought created far too dangerous a situation for the pilots 
involved in this effort. May I--just to set the record 
straight, it was not withdrawn.
    Second, if I may just say one thing about granular 
herbicides. We do not--the reason for the sensitivity, which 
there may have been. I'm not intimately and directly familiar 
with the documents that were the cause of difficulty, 
apparently, for the GAO relating to granular herbicides. The 
reason for the sensitivity is the trade names. Companies are 
concerned about the safety of their personnel.
    So we do not like to release information in public about 
what these herbicides are and what their trade names are. It's 
a safety issue with regard to the employees of the companies. 
Thank you.
    Mr. Blagojevich. Can I just ask one more question? The 
procedure in terms of--the past procedure with the State 
Department, vis-a-vis, the GAO, in terms of document requests 
and so forth: has that changed recently? Was it past procedure 
to ask for specific documents and made specific requests, and 
now you've been asked to respond to more general kind of broad 
requests? Is that a fair question?
    Mr. Thessin. Mr. Congressman, I think we have--my 
experience is more with the practice that we've had with 
Members of Congress and with congressional committees. We have 
had a number of congressional requests where the sensitive 
documents were in fact reviewed at the State Department. When 
we were asked for guidance in this particular case on how the 
GAO's documents should be handled, we said, ``We should have 
GAO review the documents at the State Department as well, the 
sensitive documents.''
    These sensitive documents are in the GAO's offices in the 
State Department. They have access to those documents, regular 
access whenever they please.
    Mr. Blagojevich. Thank you. No further questions.
    Mr. Barrett. If I could followup a little bit on the whole 
issue of the monitoring agreements. And, again, I turn to you, 
Ambassador. My understanding from the claims I've heard is that 
the delay in providing the military assistance has been related 
to an insistence on end use monitoring agreements. Can you talk 
on that issue, please?
    Ambassador Frechette. Yes, I can, Mr. Barrett. I began 
discussing the question of the 506(a)(2) drawdown with the 
Colombian minister of defense on October 3, 1996. And I 
explained to him that we intended to make this equipment 
available but there would be some end use monitoring 
requirements as well as a human rights requirement. I continued 
to discuss this with the minister through November and 
December.
    As I got more instructions and more clear instructions from 
the Department of what it was that we were expecting the 
Colombians to give us in the way of assurances--the minister of 
defense is now the Ambassador of Colombia to Washington. And he 
departed Colombia on January 18th. On January 14th he had still 
not given me the assurances that he had been telling me that he 
would. On January 15th, 3 days before he departed for 
Washington, he gave me a letter which was simply not useful in 
terms of what he and I discussed for a very long period of 
time.
    So, I have explained carefully to that minister of defense 
and then to his successor, who lasted 6 weeks in office until 
it was revealed that he had received $30,000 from a narco-
trafficker for a Senatorial campaign in 1989. I have continued 
to discuss it with the current minister of defense.
    My last meeting with the minister of defense, as I get more 
instructions from the Department--by now I have been discussing 
not just the 506(a)(2) drawdown, but the 614. My last meeting 
with him was on July 7, just before coming here. And again they 
refused to undertake to give us the human rights requirements 
that we have.
    Now, Colombia is a sovereign nation, Mr. Barrett, and it 
has a perfect right to refuse any assistance it wants to from 
the United States. But we're also a sovereign nation. And the 
taxpayers of the United States and the Congress of the United 
States have a perfect right to put whatever conditions it wants 
on the giving of this assistance. So we're sort of at a 
standoff.
    I don't mean to say that the issue is closed. I intend to 
return to post tomorrow. I will return again to explain to the 
minister of defense what it is that we require in the way of 
human rights monitoring requirements. Because, quite frankly, 
as I told Chairman Hastert and the members of this 
subcommittee, I have been working since October 1996--that's 
many, many months--to try to get assistance for the Colombian 
Army, for the Air Force and the Navy, to recognize the support 
that they have given since at least May 1996 to a very good 
effort in the southern part of Colombia. Those are the facts.
    If I may also, Mr. Chairman, add a couple of things raised 
by Mr. Blagojevich earlier. The account given to you at my 
residence on May 26 about removing one herbicide--it was not 
accurate. We had asked the Colombians to approve at least four 
herbicides so that we could do tests. Scientific tests are 
better if you can try several different products. They chose 
the least noxious.
    I'm very happy to report--perhaps because the fact that 
this was raised in your presence, Mr. Chairman, and the 
members, and in the presence of your subcommittee on May 26--
that they have approved a second herbicide. Now we can do some 
tests. And we can test two different herbicides to see whether 
one is more effective, not just in terms of lethality of 
killing the plants, but also in terms of cost, which is also an 
interest to the United States. We pay for that, not the 
Colombian Government.
    Now, with respect to the names of the herbicides, when--
about a year ago, Mr. Chairman, the people in Colombia who 
provide what we call Roundup in this country--glyphosate is the 
generic name--were threatened. And at one point they were 
frightened to continue to sell us glyphosate so that we could 
continue the spraying.
    And at one point they even suggested that perhaps we could 
buy it from China, where they also produce it, or from Hungary, 
where they also produce it. This is a real problem in Colombia. 
Those people who produce these herbicides do not want the trade 
name known because then they will be threatened. And, of 
course, who threatens them? The narcos. Thank you, Mr. 
Chairman.
    Mr. Hastert. Well, thank you, Mr. Ambassador. I just want 
to make just a couple comments before I pass it on. It baffles 
me why you are withholding any documents from the U.S. 
Congress. I just don't understand that. And maybe through the 
process of this subcommittee hearing we can get some better 
explanation.
    Second, the whole issue on granular herbicides--I think 
it's pretty trite of an issue. This is the only country we've 
held up because of the type of herbicide they're using. No 
other countries are using herbicides, they're starting to--but 
when you're talking about a granular herbicide, and we're 
denying that, we took it off. But they chose one. I don't know 
how you want to explain it. You can explain it seven different 
ways, but they chose a granular herbicide to use because this 
is what the conditions we laid out were.
    One of them that we held out--they chose it, and then we 
said, ``Oh, you can't use that one that we gave you because 
it's too expensive.''
    We're talking airplanes protection. We're talking about 
human life protection. And most importantly, I mean, look at 
the billions and billions of dollars that we spend to try to 
snuff out drugs coming into this country. And at the same time 
we're saying, ``Oh, by the way, you can't use this herbicide. 
It's too expensive.'' I pass it on to Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. Mr. Chairman, I'd 
first like to ask Mr. Hinton--the State Department said that 
down at the State Department, all the records you want to look 
at are in a location where you have access to them whenever you 
want to, is that correct?
    Mr. Hinton. I do not have all the documents, sir.
    Mr. Burton. So they're misleading us? Is that correct?
    Mr. Hinton. We do not have 10 documents. I have some 
classified documents in our possession that we have access to. 
The point that I've tried to make here, that it's been over 2 
months that it's taken us to gentleman these. There's been 
delays that we've encountered through the process. What we do 
now have--we've gotten the majority of them, Chairman Burton, 
and now we're starting to go through them.
    Mr. Burton. Mr. Thessin.
    Mr. Thessin. We can account for only five documents that 
they do not have.
    Mr. Burton. I thought you said just a moment ago that all 
the documents were at the State Department in an area where 
they had access to them. Is that correct or not?
    Mr. Thessin. I'd have to have my----
    Mr. Burton. Well, you just said a few minutes ago, sir.
    Mr. Thessin. What I was trying to communicate, Mr. 
Chairman, was--it came right after Ambassador Becker spoke 
about the five documents. The ones in Bogota--they were draft 
documents of the final report. Also, the one document that she 
had mentioned, that was a legal document that they did not have 
copies of.
    Mr. Burton. Well, the bottom line is that all of the 
documents requested by GAO at the request of Congress have not 
yet been delivered so they can look at them. Is that correct?
    Mr. Thessin. That is correct, Mr. Chairman. There are five 
documents that we can't account for.
    Mr. Burton. OK. Thank you. That's what I'd like to know. 
Because the implication a while ago of your answer was that 
they had access to everything when they don't. And the Congress 
wants GAO to take a close look at this at our instruction. I 
would also like to ask Ambassador Frechette. Back in 1994, 
Chairman Gilman and I served on the International Operations 
Committee. A question was asked of Robert Gelbard then the 
Assistant Secretary of State for Latin America, as I recall, 
about these miniguns and why they were being held up.
    Also, there was some concern about the human rights record 
of the Danti unit--of the CNP down there. And I think that you 
said--or it was reported to the State Department and I believe 
to the Congress, that the Danti antinarcotics unit had a 
stellar human rights record.
    Ambassador Frechette. In the time that I have been in 
Colombia, sir, yes, they have had a very good record. And I got 
there on July 21, 1994.
    Mr. Burton. OK.
    Ambassador Frechette. I am not familiar with the statements 
made by Assistant Secretary Gelbard to you, sir.
    Mr. Burton. I understand. But the point is, in 1994 and 
after that, it was verified that the unit that would be 
utilizing these helicopters with miniguns, they had a stellar 
human rights record. And yet the miniguns were not and have not 
been delivered. Mr. Chairman, would it be possible for you to 
swear in Mike Ryan, the Acting Deputy Assistant Secretary for 
the INL? I'd like to ask him a question or two?
    Mr. Hastert. Is he present?
    Mr. Burton. I believe he is.
    Mr. Hastert. Would you----
    Mr. Barrett. Mr. Chairman, I reserve a point of order here. 
I don't recall that we've had this witness listed.
    Mr. Hastert. The witness volunteered to testify--and we 
thought because of the numbers. But if he has information and 
is here and is willing to testify.
    Mr. Burton. He has operational information, Mr. Chairman.
    [Witness sworn.]
    Mr. Hastert. Let the record show that the witness answered 
in the affirmative.
    Mr. Burton. Mr. Ryan, I've spoken with you about the 
minigun issue I think more than once. You assured me that you 
would monitor the progress of the delivery and keep me 
informed. Moreover, you informed my staff that these miniguns 
would be delivered, mounted, and in operation within 30 days of 
our conversation.
    Mr. Barrett. Mr. Chairman, point of order. I don't know who 
this gentleman is.
    Mr. Hastert. Would you state your name?
    Mr. Ryan. I'm sorry, sir. My name is Michael Ryan. My job 
is Executive Director Comptroller of the INL bureau in the 
Department of State. And currently I'm Acting Deputy Assistant 
Secretary reporting to Ambassador Becker.
    Mr. Barrett. Mr. Chairman, if I may continue my point of 
order. It appears obvious that Chairman Burton has some 
prepared questions. My understanding of the rules is that we 
have 3 days prior notice of a witness. It seems to me that the 
chairman has prepared questions. He knew that this gentleman 
was going to be a witness. Point of order.
    Mr. Hastert. Ambassador Becker and Mr. Ryan are cohorts. 
They work together. He is support for Ambassador Becker. And I 
would assume that his testimony would be part of her testimony 
as well. Do you have any objection, Ambassador Becker?
    Ms. Becker. No, Mr. Chairman, I don't. And I don't know 
what the rules of your committee are, to be honest.
    Mr. Barrett. Is it correct--if I may ask Ambassador 
Becker--is he a support person for you, so I understand the 
relationship between you two?
    Ms. Becker. Yes, Mr. Barrett, he is. And he is more 
familiar with the specific details on the minigun question that 
Congressman Burton is asking than I am. He is more familiar 
with those details.
    Mr. Barrett. Thank you.
    Ms. Becker. Thank you.
    Mr. Burton. Mr. Chairman, I hope that this will not take 
away from my time so I can conclude my questions.
    Mr. Hastert. You have 1 minute and 17 seconds extra.
    Mr. Ryan. I'll talk fast.
    Mr. Burton. Mr. Ryan, let me restate the question. I've 
spoken with you about the minigun issue. You assured me that 
you monitor the progress of the delivery and keep me informed. 
Moreover, you informed my staff that the miniguns would be 
delivered, mounted and in operation within 30 days of our 
consultation, which by my calculation should have been by the 
first week in July. Now can you inform me as to the current 
status of the miniguns?
    Mr. Ryan. Yes, sir. When we last spoke, we had--to back up 
the situation so everybody understands. We had requested 12 
miniguns systems through normal channels in February. We made 
the request in the way we always request a loan of equipment 
from DOD. We've done it for M-60 machine guns in the past. We 
saw that request staffed through the Army up into the Assistant 
Secretary of the Army level here in Washington. And there was 
obviously a real reluctance on the part of the Army, which I 
don't quite understand, to release the weapon systems to us.
    As a result of, I believe, your call, Mr. Chairman, to an 
official within DOD----
    Mr. Burton. Yes.
    Mr. Ryan [continuing]. On the very next day we received a 
letter faxed that they'd sent to you saying that the 12 systems 
would be released to us. The systems were in Anniston Army 
depot. At that time I thought that they had 12 systems, that 
they would package them, and send them to our depot in Patrick 
Air Force Base.
    I'm experienced with these kinds of matters. I wanted to 
inspect the systems. Because it's a serious matter. It's not 
sophisticated, but it's a lethal system. We wanted to inventory 
it, to get serial numbers on all the parts, to make sure that 
we knew what we had. And I also wanted to make sure that we had 
the complete systems.
    Mr. Burton. Let me----
    Mr. Ryan. And I found out on Monday when I came back from 
leave that, in fact, on the 20th, a shipment arrived at 
Patrick, my staff opened them, inspected them, and found that 
they were barrel bolt assemblies, which while very useful and 
will be useful to the Colombians and to us, were not what we 
had expected. They were not a complete system.
    Mr. Burton. They're missing the motors?
    Mr. Ryan. Missing the feeder/clinkers and a number of other 
items.
    Mr. Burton. Well, somebody said that this was due to a 
clerical error and that they were hunting for the motor 
somewhere else in the defense inventory. You informed us that 
you're still looking for the motors or they are, and you've 
assured that they would be delivered, mounted and in operation 
by the first week in July. And, of course, that has not yet 
happened.
    You said that you would try to get them on the second of 
two channel flights to Colombia on July 16 or 23?
    Mr. Ryan. Yes, sir.
    Mr. Burton. However, they need to be a high enough 
priority. Can we be assured today that it's going to be a top 
priority to get them on those planes?
    Mr. Ryan. All I can do is request from the Department of 
Defense to put them on the planes.
    Mr. Burton. Mr. Chairman, I would suggest or urge that we 
get a hold of the Department of Defense and make sure this is a 
top notch, high priority. I would just like to end up by 
saying, first of all, we'd like to know who we need to call to 
make sure they're on those flights. Second, an awful lot of the 
CNP officers have been killed, and we just wonder how many more 
have to be killed before this problem is solved.
    These miniguns should have been delivered in 1994. The 
people that are going to handle them have a stellar human 
rights record according to the Ambassador. There's no need for 
them not to be delivered. We need to get them down there and we 
need to get them down there right now.
    Mr. Hastert. Mr. Chairman, I think we have a representative 
from the Department of Defense here and I'm sure he took note 
of what you said. The gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. Ryan, 
let me go back to what you were just talking about. It's my 
understanding that from what Mr. Burton just said that somebody 
in the Department of Defense said there was some kind of 
clerical error here?
    Mr. Ryan. Well, let me--I don't completely understand it 
myself, sir, so let me not try to pretend that I know more than 
I know. But yesterday, it was explained that there was some 
confusion at the depot or warehouse. They just didn't ship or 
they didn't have the proper parts that they thought they had, 
that the parts were not compatible with Hueys but were 
compatible with UH-60's.
    Mr. Cummings. Mm-hmm.
    Mr. Ryan. And when they shipped the bolt barrel assemblies, 
it didn't include the motors. The Department of Defense stepped 
up to the plate--the Office of the Secretary of Defense--and 
said that they would help us expeditiously try to find the 
proper motors, if they weren't indeed at Anniston and procure 
them.
    Mr. Cummings. Do you have any reason not to believe what 
they said?
    Mr. Ryan. I don't have any reason not to believe, sir, no.
    Mr. Cummings. All right. Well, I don't think that there's 
anybody on this side that would disagree that if there's been a 
clerical error, we would like to see that clerical error 
cleared up and that these miniguns be delivered. I'm sure I 
speak for our side.
    Mr. Ryan. Yes.
    Mr. Cummings. We want to do everything that we can, of 
course, to address this drug problem, because it's a very 
serious problem. Mr. Ambassador, let me move on to you. I'm 
concerned about this human rights situation. And you said that 
you had had discussions with one Ambassador, the head of the 
defense, who lasted 6 weeks.
    Ambassador Frechette. Three defense ministers.
    Mr. Cummings. All right. Can you--I know you can't disclose 
maybe certain information. Can you tell us about these 
discussions as best you can, what your concerns were, and give 
us an idea of what kind of problems you had?
    Ambassador Frechette. Yes, sir. I was instructed to tell 
the Colombians that they had to give us certain assurances, not 
just with respect to the use of this equipment for 
counternarcotics, but also for human rights, to make sure that 
they were not in any way used for violations of human rights. 
This is a very sensitive issue in Colombia, sir. It's a very 
sensitive issue to the military. And, quite honestly, it was 
very difficult for the Colombians to in the end make a 
commitment to meet our conditions. And they still haven't done 
so.
    Almost 9 months plus of discussions--they still--they come 
very close to a settlement and then they back away. And, as I 
said, I have explained as I get further clarification from the 
Department what it is we want. It seems to me we're getting 
close, and then it eludes me again; they refuse to do it.
    I am going back, and I intend to raise the issue again, 
hoping that we can close the deal so that we can make equipment 
available to the Colombia Army, to the Air Force, the Navy, as 
well as the national police. We don't have these human rights 
problems or end use monitoring with the national police for two 
reasons: No. 1, All the equipment we give to the police is only 
to the counternarcotics police--that's all they do is fight 
narcos; and, No. 2, That unit, which is only 2.5 percent of the 
total force of the national police--there are about 100,000 
national police, and we deal with 2,500 of them. The 
counternarcotics police have a very good human rights record, 
at least since I have been in Colombia. And they jealously 
guard that. They make sure that there are no suspicions or any 
violations of human rights.
    So I will continue, sir, trying to get this assistance. 
Because we in Colombia and in the Department have tried very 
hard to make available counternarcotics assistance to the armed 
forces of Colombia to recognize the fact that since at least 
May 1996 they have been working hand in hand with the national 
police in the southern region of Colombia.
    Mr. Cummings. Let me make sure I understand this. 
Negotiations--as a lawyer I've been involved in a lot of 
negotiations. And there are a lot of times you have situations 
where you have a list of things that you want. And then maybe 
let's say you have 10 things and you're able to get 8. And then 
you try to figure out, can you compromise on the other two or 
whatever. Are these the kind of negotiations you have where you 
have a list of things you want and you just can't get all of 
them and then, do you go back to the State Department? How does 
that work?
    Ambassador Frechette. Yes, sir. I get the instructions from 
the State Department. I then present the position of the State 
Department--actually the U.S. Government. Because other 
agencies are involved in preparing this position. I present it 
to the Colombians and then they give me their reaction. Yes, 
they like it. No, they don't like it. They'd like to have this 
changed. They wouldn't like to have this changed. And in some 
cases, the changes they propose I know are simply unacceptable 
simply from the background documentation given to me by the 
Department. In other cases I don't. I refer them to the 
Department.
    I am not a lawyer. It is the Department that fixes that 
position for us. And then the Department tells us, this is 
acceptable, this is not acceptable. As a matter of fact, on the 
614, we have now made two proposals to the Colombians. The 
first one they rejected for a number of reasons which were 
unacceptable to us because they didn't meet the requirements of 
the law or the policy that we had established for giving 
counternarcotics assistance to the armed forces.
    So the Department and other agencies, crafted a totally new 
proposal, a very different one that we thought met their 
requirements. But to my frustration and disappointment, I found 
out that that also did not meet their requirements. As I said, 
I will keep going back to them as long as I can, because I 
would like to make available equipment to the Army, the Navy 
and the Air Force. And so does the Department of State.
    Mr. Cummings. All right. Thank you.
    Mr. Hastert. I now recognize Chairman Gilman from New York.
    Mr. Gilman. Thank you, Mr. Chairman. Mr. Chairman, let me 
try to set the record straight on the Leahy amendment. It does 
not apply, as I understand it, to a 506 drawdown or to the 614 
waiver. I just don't understand the rationale of attempting to 
apply it to those situations. Does anyone want to comment on 
that?
    Mr. Davidow. Mr. Gilman, the decision to apply the 
provisions relating to human rights of the Leahy amendment to 
articles provided under the narcotics legislation was a matter 
of policy. It was a policy decision. The decision was made to 
provide a consistency in the kinds of end use monitoring that 
we would conduct in Colombia and other countries that were 
receiving or are receiving goods, services, and military 
equipment from more than one account in the United States.
    The idea of providing consistency makes good sense. If a 
certain item is provided out of one governmental pot of money 
in the United States--let's say a helicopter. If the same 
helicopter is provided from another governmental pot of money, 
it seems to me that if we're going to have our messages 
understood about human rights in what we want to do, and 
established clear cooperation with the country in question, 
then it makes sense to have clear guidance that are applicable 
in all cases.
    Mr. Gilman. What do you base your application of the Leahy 
amendment to the 506 drawdown and the 614? What language are 
you using?
    Mr. Davidow. We're using the language of the Leahy 
amendment. And as a matter of policy we made the decision to 
move ahead and apply it to 506 and 614.
    Mr. Gilman. Doesn't that apply only to INL money?
    Mr. Davidow. The Leahy amendment itself. And I'll ask the 
head of INL--yes, is restricted in its application. However, a 
policy decision was made to amplify that application.
    Mr. Gilman. Well, you're holding up all of the assistance, 
and yet this applies only to INL money. Perhaps the INL 
representative could clarify that for us.
    Ms. Becker. Yes, sir. The Leahy amendment applies to--in 
its entirety--including certification by the Secretary of 
State--that no funding from the INL account is going to any 
unit of any security force that is suspected--where credible 
evidence exists that there has been an engagement in gross 
human rights violations. The certification only applies to the 
INL account.
    However, as Ambassador Davidow indicated, there was an 
administration----
    Mr. Gilman. Could you move the mic a little closer to you, 
please?
    Ms. Becker. OK. Sorry. However, as Ambassador Davidow 
indicated, there was an administration decision taken that the 
Leahy standards without the certification--the Leahy standards 
would apply to all counternarcotics assistance.
    Mr. Gilman. Well, isn't that extending it beyond the 
statute? You're extending it to all situations, and yet the 
Leahy amendment was only applicable to the INL account.
    Ms. Becker. In strict point of fact, sir, that is true. 
However, in the course of the consultations that the 
administration undertook with the Congress in support of the 
506(a)(2) package and the preconsultations that were undertaken 
in April on the 614 package, it was made very clear by a number 
of key members that unless there were standards similar to 
Leahy applied to these transfers that those members would 
oppose them quite strenuously.
    Mr. Gilman. Secretary Becker, who were those consultations 
with? I'm chairman of the International Relations Committee. I 
don't recall any consultation. Chairman Burton may recall come 
consultation.
    Mr. Burton. I recall no consultation, Mr. Chairman.
    Mr. Gilman. Who were your consultations with?
    Ms. Becker. They were with the--I will have to get the 
specific names of staff who were consulted.
    Mr. Gilman. With staff? Are you saying consultations were 
with staff?
    Ms. Becker. They were with the staffs of the Appropriations 
and Operations committees on both sides of the aisle.
    Mr. Gilman. Authorization committee?
    Ms. Becker. Both the House and the Senate were consulted, 
sir, at the time. And we received at least two communications 
from--one from the Senate--both from the Senate with regard to 
the opposition of various Senators to the 614 package and the 
506A package unless there was appropriate attention paid to 
human rights considerations, as expressed. I would be very 
happy to share those.
    Mr. Gilman. Are you saying there were only two letters, and 
they came from the Senate? Is that correct?
    Ms. Becker. There are two letters. Excuse me, one of the 
letters from the Senate was signed by 12 Members and the 
other--I'm sorry, the other is from the House, sir, signed by 5 
Members.
    Mr. Gilman. Who signed the House letter?
    Ms. Becker. Congressmen Pelosi, Yates, Obey, Torres and 
Lowey.
    Mr. Burton. Are any of those in the majority?
    Mr. Gilman. What was the date of that letter?
    Ms. Becker. March 20.
    Mr. Gilman. March 20?
    Ms. Becker. 1997.
    Mr. Gilman. Were there any majority Members and were any of 
the Members on our International Relations Committee?
    Ms. Becker. The committee staff--as I said, both sides of 
the aisle--were briefed on this package. And as a result of 
this briefing, this letter was received.
    Mr. Gilman. But none of these Members that you recited are 
members of our International Relations Committee. Were there 
any of those Members, Mr. Burton, of your committee?
    Mr. Burton. There were none of my committee. I think it's 
reprehensible they make a decision with only one side.
    Ms. Becker. May I also refer to the letter from the Senate, 
which was dated October and which refers to the 506(a)(2) 
package and to subsequent packages, which was signed by 
Senators Leahy, Dodd, Kerry, Jeffords, Obey, Yates, Sarbanes, 
Feingold and Representatives Torres, Hamilton, and Senator 
Harkin, which requests that in the future under 506(a)(2) and 
any other counternarcotics assistance, that written agreements 
for the transfer and receipt of lethal equipment or aircraft, 
that there be an explicit understanding with regard to those 
transfers.
    Mr. Hastert. The time of the gentleman has expired.
    Ms. Becker. In addition to that, may I also--I'm sorry, 
sir.
    Mr. Gilman. Mr. Chairman, I'm going to ask that those 
letters be made part of the record.
    Mr. Hastert. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gilman. And I certainly would raise an objection to the 
fact that you had an agreement with the House and essentially, 
neither of the committees that have jurisdiction--the 
authorization committees--were consulted with regard to this 
change in policy.
    Mr. Hastert. I'm going to move on, but I just want to make 
a comment. I just find it very interesting that we're changing 
policy here not because of law or not because of the letter of 
the law, but because of interpretation of letters that are 
passed on. That might be a new way to legislate here. We'll 
just write letters, and we'll get the things done. But I am 
just aghast at what I hear. I'm going to yield to the gentleman 
from Chicago, IL.
    Mr. Blagojevich. Thank you, Mr. Chairman. I would like to 
just open by saying that I had the pleasure of going down to 
South America with Chairman Hastert and the codel that 
specifically studied this issue of drug interdiction, not only 
in Colombia, but in Peru, Bolivia, and in Panama, as well. I 
will say as a ranking freshman on that codel who happens also 
to be a freshman and the only Democrat who happened to be 
there, it was a journey that was done in a bipartisan way.
    And while we probably did not reach the same conclusions on 
all of the issues, there is an area where I think all of the 
members on our trip would agree, and that is on the success of 
the Peruvian air interdiction campaign, interdicting the coca 
base from Peru to Colombia before it's manufactured in the labs 
in Colombia. And because of that success, the desire of drug 
traffickers to do their transport either by ground or on the 
rivers, which leads to me to my question.
    I'd like to direct this to Mr. Newberry. And that is, the 
appropriations from the Department of Defense is presently in 
the Senate, I understand, in trying to get some of the 
necessary assets to supplement the riverine efforts down in 
South America, particularly in Peru, Colombia, and Bolivia. Can 
you tell us how that is going and what, if anything, we here on 
this committee can do so that we can try to get the money 
necessary to be able to help the drug interdiction war by 
providing those resources on the rivers down in South America?
    Mr. Newberry. Yes, sir, I'd be pleased to. You're correct 
in saying that the traffic apparently is moving toward the 
rivers at this time, not that air is completely gone. Much of 
the traffic on the river is to get the coca paste close to the 
borders so that they can short hop the flights across and deter 
detection with the short hops. Traffickers also overfly Brazil 
as a way to transit from Peru to Colombia.
    As you are aware, we already in the Department of Defense 
have authority to provide training and have authority to 
provide or establish bases of operation. When you look at Peru 
especially and some parts of Colombia, to startup a good 
riverine program you need all three things: training, bases of 
operation, and equipment.
    Although we can provide equipment through section 506 and 
by providing excess equipment to help out in the air detection 
and monitoring--air interdiction--we don't have that capability 
when it comes to small boats. We don't have a large inventory 
of small boats. The special forces have some. But not really 
sufficient to establish a riverine program in Peru or to 
enhance the one in Colombia. They have one started.
    The authority we've asked for was an extension of a similar 
authority we got this year for Mexico, where we were allowed to 
procure and transfer new equipment and also procure parts and 
provide maintenance support for systems. In Mexico it was 
oriented toward helping out with the UH-1H helicopters that 
we're transferring to them.
    To do the riverine program we were asking for 5 years of 
authority to help out Peru and Colombia. The need for the 5 
year authority is a lesson we learned with Mexico. In order to 
work with our budget office and actually construct a long-term 
program, you need more than 1 year authority or incremental 
authority.
    One year authority allows us to go out and buy something 
really quick, get something going. But we can't program through 
the budget process for the next year and for the follow on 
years unless we have an extended authority. And that's why we 
were really asking for the 5 year program.
    I solicit your help. We are under some criticism right now 
because it is a new initiative. We're being asked--there's 
concerns--well, are we stepping into the riverine program 
without a real threat assessment? In fact, we've had a recent 
threat assessment done by Defense Intelligence Agency, and CNC 
is doing one now at the request of the Office of National Drug 
Control Policy.
    There are concerns about a plan. As many of you are aware, 
SOUTHCOM developed a concept for riverine as part of the 
overall program in South America. The Peruvian country team has 
developed a strategy recently which is similar in substance to 
the SOUTHCOM concept. And now it's time to do a plan.
    There's concern that the plan doesn't exist yet, that we 
don't have a coordinated inter-agency plan, that we don't have 
a joint country team SOUTHCOM plan. I think that's maybe an 
unnecessary concern.
    Mr. Blagojevich. Could I just interject a minute?
    Mr. Newberry. There's nothing that DOD ever does without a 
plan.
    Mr. Blagojevich. Right.
    Mr. Newberry. I can tell you, we don't polish shoes without 
a plan.
    Mr. Blagojevich. I must tell you, though, while we were 
there we had the opportunity of being briefed by SOUTHCOM. And 
it certainly seemed to me that they had an idea of the need for 
the resources down on the rivers and, in particular, how they 
would use them. I would only remind you that I can speak for 
myself. I am very supportive of the concept of trying to be 
able to get those resources so we can help the riverine 
process. And I would only ask you to tell us what we need to do 
to help get that necessary money and to send it in the 
conference.
    Mr. Newberry. There is some concern in the Senate Foreign 
Relations Committee about us circumventing the FMF system, or 
foreign assistance program. I think, if you know DOD well, we 
certainly don't give away our money easily. And it was quite an 
accomplishment in our building just to get through our building 
legislation that we would actually use DOD funds to buy 
something and give it away to somebody.
    We've offered that. We've offered it for a short-term 
program to get the riverine system started. And then once it's 
established, to back away from long-term sustainment. So we're 
not circumventing the system, we're really supplementing it in 
a small way. We do have money already for training. We have 
money we can use for building facilities.
    We just need the funds for procuring systems. Anything that 
you can do to help on the Senate side or to get an amendment to 
get this thing going, I'd appreciate it. Right now the Senate 
Authorization Committee does have something for Mexico, Peru 
and Colombia. We'd like to keep it on the dock. Then in 
conference with the House, get the legislation passed.
    The House right now has nothing. They didn't approve 
anything on the House side.
    Mr. Hastert. The time of the gentleman has expired. I just 
want to say, I really appreciate Mr. Blagojevich giving up some 
time around Memorial Day to accompany us on a trip. It was 
certainly a bipartisan effort. He made a great contribution. 
And I have to say that General Wes Clark from SOUTHCOM is 
really working I think some good concepts and perspective.
    We're losing him to the European command, unfortunately. 
And the DEA has worked to make especially the riverine project 
workable. So we keep that in mind. Now I yield to the gentleman 
from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. Ambassador Frechette, 
good to see you back. And I appreciate the opportunity to work 
with you over the years in different capacities. As you know, 
in the opening statement Chairman Burton referred to the 
missionaries that have been held hostage longer than I guess 
any other American hostages. Those three missionaries are from 
my district.
    And we've discussed the situation. I had lost some hope 
actually from the beginning of year. We now have a number of 
positive indications that they may be alive and continue to be 
held. I understand that there was a trade of some prisoners or 
hostages--military. Has there been any additional indication 
possibly from any of these individuals--are they being 
interrogated as to the whereabouts or to the condition of our 
three Christian hostages that are being held?
    Ambassador Frechette. Mr. Mica, as you know, you and I have 
discussed this issue over the phone. I assured you that 
throughout my time--because these were kidnapped fully a year 
and a half before I arrived in Colombia--we have pursued every 
single lead. I have been visited by the spouses of these three 
missionaries. It's heartbreaking, because they ask me, ``Are 
they alive or are they dead?''
    I always give them the same answer: ``We occasionally get 
indications that they might be alive and we track down every 
single indication.'' Here I might say that I have a legal 
attache--that is, some FBI people--in the mission. They work 
very hard with this. I have gone many times to the Colombians 
to ask for their cooperation with respect to this.
    We did ask them when this trade of the 60 soldiers and the 
10 Marines was going to take place on June 15 if they would 
consider asking for them, and the answer was, no. I want to 
assure you, sir, that we will continue to followup every lead. 
I'm not at liberty at this open session to tell you some of 
things that we have done, some of the governments that we have 
gone to to ask for information on this.
    I might also say that for a very long time, the FARC--which 
is the guerilla group that we believe took them--have not even 
confirmed that they have them. In other words, they were taken 
by the FARC in Panama, not in Colombia. But the FARC crossed 
the border and then took them back into Colombia.
    But for a very long time the FARC has refused to 
acknowledge that they even have them. We believe they did take 
them. And in some of these messages that we have sent to the 
FARC from intermediaries from other governments we have said, 
``For goodness sake, return them.'' And the answer given to 
these intermediaries from other countries is generally they 
won't even acknowledge that they have them. But let me assure 
you as I've assured the families continually, we will continue 
to follow every lead, every possible indication that they may 
be alive.
    Mr. Mica. Were any of the individuals--was anyone from our 
State Department involved in the negotiation for the release of 
60 Colombians and 10 Marines? They were not.
    Ambassador Frechette. No, sir. They were not.
    Mr. Mica. Is it that----
    Ambassador Frechette. There was one American international 
observer at the time that those people were handed over. He is 
Mr. Robert Pastor of the Carter Center in Atlanta. But nobody 
from the United States Government was involved in any way in 
the negotiations for the release of those 60 soldiers and 10 
Colombian Marines.
    Mr. Mica. Has anyone from the State Department, to your 
knowledge, or Office of the President, expressed to the 
Colombians our interest in securing the release of our three 
hostages, say, above your level, to your knowledge, in the last 
6 months?
    Ambassador Frechette. I believe so. But I can't tell you 
when and who did it, but I believe so. I believe that there 
have been people more senior to me and not just in the State 
Department who have raised this issue.
    Mr. Davidow. Mr. Mica, if I may add something?
    Mr. Mica. Yes.
    Mr. Davidow. The issue--of course, you know there are six 
American hostages in Colombia. We are concerned with all of 
them. In relation to the 3 that you are mentioning, just 
recently--indeed, coincidental with the return of the 60 or 70 
Colombian soldiers, we had conversations with a friendly 
government that was represented at that turnover ceremony.
    At our request, we initiated contact to see if there were 
something that could be done in terms of the, in particular, 
the three that you have noted. The friendly government, which I 
don't identify for obvious reasons in this session, made it 
quite clear that this is a major concern of the U.S. 
Government. The conversations that were held with FARC 
representatives----
    Mr. Hastert. Would the gentleman yield for a second?
    Mr. Davidow. Sure.
    Mr. Hastert. You said friendly government? I couldn't quite 
understand.
    Mr. Davidow. Yes. I'm sorry.
    Mr. Hastert. Friendly government?
    Mr. Davidow. Yes. A government that is----
    Mr. Hastert. Friendly to us?
    Mr. Davidow. Yes, sir.
    Mr. Hastert. And also is friendly to the FARC?
    Mr. Davidow. No, sir.
    Mr. Hastert. Has contact with the FARC?
    Mr. Davidow. No, sir. It's not friendly to the FARC. It is 
seen as a government that has----
    Mr. Hastert. I'm just trying--they have contacts and they 
can----
    Mr. Davidow. They have.
    Mr. Hastert. OK. I'm just trying to clarify.
    Mr. Davidow. They have. But not contacts which would in any 
way help the FARC.
    Mr. Hastert. OK. I yield back to the gentleman from 
Florida.
    Mr. Davidow. Yes. The response was from the FARC 
representatives who were at the turnover had no information. 
The FARC is an organization which is highly fractionated. There 
is no indication that the group that was holding the Colombian 
Marines is the same group that may be holding the three 
missionaries.
    As Ambassador Frechette has said, one of the requests that 
we made through the intermediary was to receive some indication 
that the three gentleman are indeed alive. It's an unfortunate 
topic to discuss. There has been no indication or credible 
information that I'm aware of in recent years that the 
gentleman are alive. We'd like to see some of that. But I just 
wanted to inform you about this.
    We can talk in greater depth in some other forum. This is a 
topic that we are following at the State Department as well as 
at the Embassy in Bogota.
    Mr. Mica. Well, my time has expired. But I do want to 
inform all the representatives of State and other agencies that 
this is a priority--these three hostages and the other three 
Americans.
    Mr. Davidow. Mm-hmm.
    Mr. Mica. If Colombia can secure the release of their own 
folks, it should certainly be one of our priorities to secure 
the release of our citizens. If it isn't, we need to know 
what's going on.
    Mr. Hastert. The time of the gentleman is expired. The 
gentleman from Georgia, Mr. Barr.
    Mr. Barr. Mr. Chairman, I would ask unanimous consent to 
insert into the record an article from the July 8 edition of La 
Nacion, which lists the--looks like about 20--brave Colombian 
military and other individuals who were killed when the 
helicopter was shot down just last weekend.
    Mr. Hastert. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Barr. And I would appreciate all of the State 
Department witnesses at least considering in their own minds 
whether or not those brave men would be alive today had it not 
been for the bloviation, the obfuscation and the delays which 
we have been witnessing with the last many months in providing 
the helicopters, the guns, the ammunition, the armor plating, 
the vests and all the other equipment that is designed to save 
lives and defend.
    I'd also like, Mr. Chairman, to request unanimous consent 
to insert two pages of Title XXXI of the United States Code 
Section 716, which was referred to earlier by Mr. Hinton, which 
provides the authority under which the GAO ``shall''--that is a 
word quoted from the statute--be given the information that 
they have requested and that we have requested through them, 
and draw specific reference to the fact that the GAO may bring 
a civil action to enforce its requests and it may seek an order 
of contempt for failure to provide that.
    And I would encourage the GAO to reread those statutes and 
take some action.
    Mr. Hastert. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Barr. I would also like unanimous consent to insert 
into the record a letter dated July 7, 1997, from the U.S. 
Department of State by Barbara Larkin, Assistant Secretary, 
Legislative Affairs--a one-page letter and a three-page 
attachment. This is the 614 waiver letter. And I'd like, Mr. 
Chairman, to have that inserted into the record.
    Mr. Hastert. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Barr. Mr. Thessin, on page 3 of the attachment to that 
letter, that attachment being titled: ``Memorandum of 
Justification Under Section 614 of the Foreign Assistance Act 
to Support the Provision of Foreign Military Financing Funds 
and International Military Education and Training to the 
Government of Colombia.''
    The second paragraph on page 3 says the following: ``We 
would conduct a case by case review before expending any funds 
that have been committed to FMS cases and would proceed only 
with those cases we judged to be fully justified on 
counternarcotics grounds and consistent with our legal and 
policy requirements concerning human rights.''
    Is that a giant loophole that is going to be used as a 
justification for the Department of State to continue to delay 
and delay and delay the provision of this necessary equipment 
to the Colombians?
    Mr. Thessin. Mr. Congressman, I am not an expert on that 
section. Let me have Ambassador Becker----
    Mr. Barr. You're not an expert on it? When we were down in 
Colombia we heard many references to the fact that it was in 
fact your office that was making these interpretations that 
were leading to the delays in providing the equipment.
    Mr. Davidow. Well----
    Mr. Barr. Maybe that's the reason you're not an expert.
    Mr. Thessin. I am not personally involved in that matter, 
so I----
    Mr. Barr. You did not review this letter?
    Mr. Thessin. No. I had no personal involvement with the 
letters. I'm sorry.
    Mr. Barr. OK. These letters from the Assistant Secretary 
for Legislative Affairs that deal with references to U.S. laws 
that deal with interpretations of the laws under which waivers 
are conducted did not go through the legal office at the 
Department of State?
    Mr. Thessin. No, let me clarify, Mr. Congressman.
    Mr. Barr. Please do.
    Mr. Thessin. I was asked to attend this hearing because of 
my knowledge about document procedures.
    Mr. Barr. OK. So you don't know anything about this? You 
don't know what that language means?
    Mr. Thessin. No. I think Ambassador Becker can address 
that.
    Mr. Barr. Let me decide who I want to answer my questions. 
Do you know what that language means?
    Mr. Thessin. I'd have to study it, Mr. Congressman. I'm 
sorry that I haven't studied it.
    Mr. Barr. Do any of the witnesses know what that language 
means?
    Mr. Davidow. Yes, sir.
    Mr. Barr. Let's hear it, please.
    Mr. Davidow. The language refers to what I was discussing 
before. In the provision of U.S. assistance overseas concern 
for human rights is a fundamental factor.
    Mr. Barr. Under what statute? Are these the so-called human 
rights assurances that Ambassador Frechette kept referring to?
    Mr. Davidow. Yes, sir.
    Mr. Barr. Under what specific legal authority can that be 
used as an impediment to providing aid that Congress has 
determined should go to that country and that the President has 
requested a waiver?
    Mr. Davidow. I am not aware, Congressman. Congressman, what 
we are trying to do, sir, is to ensure that no equipment will 
be provided to units if we have credible evidence that such 
units have committed gross human rights violations.
    Mr. Barr. OK. So what we're talking about here is the Leahy 
law?
    Mr. Davidow. Well, the spirit of the Leahy law. Yes, sir.
    Mr. Barr. No. Answer--are we talking about the Leahy law?
    Mr. Davidow. Leahy----
    Mr. Barr. I don't know what the spirit of Leahy means, and 
I'm getting tired of hearing about it.
    Mr. Davidow. Well----
    Mr. Barr. Are we talking about the Leahy law?
    Mr. Davidow. Yes. We're talking about----
    Mr. Barr. OK. The Leahy law says--and the State Department 
legal office may not be familiar with this, so let me read it--
``None of the funds made available under this heading may be 
provided to any unit of the security forces of a foreign 
country if the Secretary of State has credible evidence to 
believe such unit has committed gross violations of human 
rights,'' et cetera.
    Where in there is the authority for the Ambassador to a 
particular country--in this case Colombia--to demand human 
rights assurances before lawfully certified equipment is given 
to the Colombian forces?
    Mr. Davidow. It----
    Mr. Barr. This says--and I think it's an important point--
this doesn't say anything about demanding assurances. This says 
that only if the State Department has credible evidence of 
gross violations of human rights can the assistance be held up.
    Mr. Davidow. What the Ambassador has been trying to obtain 
under the instructions of the government and the State 
Department is assurances from the Government of Colombia that 
they accept the human rights provision. And, indeed, if it is 
the role of this committee of Congress that we should not be 
concerned about human rights or critical evidence that human 
rights violations----
    Mr. Barr. No. Now, come on. That's not the point at all. 
What I'm talking about here is language in statutes----
    Mr. Davidow. Right.
    Mr. Barr [continuing]. That we here, at least, up here, 
believe have some meaning and ought to be adhered to. There is 
a difference between the language of the Leahy law and what the 
Ambassador was talking about, demanding assurances of human 
rights. And I'm just curious as to where this requirement that 
human rights assurances be given. I would also--may I ask 
unanimous consent for 1 more minute, Mr. Chairman?
    Mr. Hastert. I'll give you a minute off of my time.
    Mr. Barr. OK. Unless we're going to have another round?
    Mr. Hastert. We're going to have another round.
    Mr. Barr. OK. I'll hold.
    Mr. Hastert. You reserve?
    Mr. Barr. Sure.
    Mr. Hastert. All right. Let me ask Mr. Marshall a couple 
things. The DEA, a year ago, for fiscal year 1997, this 
committee and others were very instrumental in making sure that 
15 DEA agents were added to the ability for--were added to 
Colombia--to be able to do that. Now, DEA agents, as you well 
know, do a number of things: intelligence, special agents, all 
types of things. Why haven't you put those 15 agents in? How 
come they're not inserted in the country?
    Mr. Marshall. Chairman, following the allocation of the----
    Mr. Hastert. And let me just clarify--this is the 10th 
month of that fiscal year.
    Mr. Marshall. Mr. Chairman, DEA requested in the NSDD38 
process in a cable in January of this year authorization to 
place 11 special agents and 4 support personnel. And thus far 
we have received approval to place four special agents and 
three support personnel.
    Mr. Hastert. When did you get that approval?
    Mr. Marshall. I'm sorry, sir?
    Mr. Hastert. When did you get that approval?
    Mr. Marshall. When? June 6 according to my records, sir.
    Mr. Hastert. All right----
    Mr. Marshall. Well, let me clarify that. The support 
positions were approved on April 24, the four agent positions 
were approved on June 6.
    Mr. Hastert. And some of those were replacement, is that 
right?
    Mr. Marshall. No, sir. I'm referring directly to the new 
agents.
    Mr. Hastert. Who makes that decision?
    Mr. Marshall. It's done through the NSDD38 process. And the 
State Department people would be better qualified to answer----
    Mr. Hastert. Well, who do you deal with?
    Mr. Marshall. We deal with INL and ARA, and we actually, on 
the local level, deal with the Embassy there through the NSDD38 
process.
    Mr. Hastert. Mr. Thessin, can you tell us, why aren't they 
there.
    Mr. Thessin. Ambassador Becker.
    Mr. Hastert. Ambassador Becker, that's fine.
    Ms. Becker. Yes. Mr. Chairman, the NSDD38 process, which is 
administered by the State Department reserves to the Chief of 
Mission determination with regard----
    Mr. Hastert. Who is the Chief of Mission?
    Ms. Becker. Ambassador Frechette.
    Mr. Hastert. So maybe I should ask Ambassador Frechette, 
right? We've gone one, two, three, boom, you're in.
    Ms. Becker. I was just explaining how the process works, 
sir.
    Mr. Hastert. Why haven't they been in country?
    Ambassador Frechette. Mr. Chairman, I represent the 
President of the United States in Colombia. The President of 
the United States has instructed every Ambassador in the world 
under the NSDD38 procedure to make sure that each new position, 
from whatever agency of the Federal Government, asked to be 
placed in an Embassy, to be reviewed by the chief of mission, 
No. 1, to make sure that that position is consistent with the 
goals of that agency at that post; No. 2, is consistent with 
the goals of the post in general; and, No. 3, that there is 
room for that person, and so on.
    There is a series of----
    Mr. Hastert. That's why they're not there?
    Ambassador Frechette [continuing]. Requirements levied upon 
each Ambassador by the President of the United States.
    Mr. Hastert. You've made that decision that there's no 
room?
    Ambassador Frechette. I beg your pardon, sir?
    Mr. Hastert. There's no room in your Embassy?
    Ambassador Frechette. No, sir. I didn't say that.
    Mr. Hastert. DEA--Drug Enforcement Agency----
    Ambassador Frechette. Mr. Chairman----
    Mr. Hastert. A drug problem in Colombia.
    Ambassador Frechette. Mr. Chairman----
    Mr. Hastert. I'm just asking----
    Ambassador Frechette. I was asked for 15 positions. So far 
I have approved seven. I have informed Mr. Burton, who is not 
with us any longer, that that process of discussion with the 
Bogota country attache of the DEA will continue. And we will 
continue so that he can explain to me what it is those people--
--
    Mr. Hastert. Let me just remind you, Mr. Ambassador.
    Ambassador Frechette. If I may, Mr. Chairman.
    Mr. Hastert. I reclaim my time.
    Ambassador Frechette. Mr. Chairman----
    Mr. Hastert. Let me remind you that appropriation was made 
last year--a year ago, over a year ago. The fiscal year started 
October 1, 1996. We're 10 months into that fiscal year.
    Ambassador Frechette. I understand.
    Mr. Hastert. It was certainly the intent of this Congress 
to supplement the ability for the folks that we have in 
country--and you're chief of mission--and your mission--to do a 
more quantitative job, if you will. And it was the intent of 
this Congress to do this. You have not--I would use the word 
``stall,'' but I wouldn't put that on your shoulders. You've 
not let this happen.
    Ambassador Frechette. Mr. Chairman, when I approved three 
DEA positions recently in April, I was forced to ask two 
representatives of another agency to leave. I am very close on 
space in that Embassy. And we are soon going to be in a 
situation where if I take more DEA agents----
    Mr. Hastert. Are you saying that you don't have space--and 
that's a brand new Embassy.
    Ambassador Frechette. That is correct.
    Mr. Hastert. We were there.
    Ambassador Frechette. Yes.
    Mr. Hastert. It is spacious, acreage.
    Ambassador Frechette. I do not have space.
    Mr. Hastert. It's a fort in the middle of Bogota.
    Ambassador Frechette. Yes. To take all those DEA agents I 
may be forced to ask other agencies to leave. I have other 
people who work for the Treasury, who work for the Customs, who 
work for the FBI, who also work on counternarcotics, not just 
the DEA. I may have to ask some of them to leave. It is the 
President's intention that each Ambassador judge who can come 
in and who can leave on the basis of his overall knowledge of 
the objectives of the country team. I am the Ambassador at that 
point.
    Mr. Hastert. I'm going to reclaim my time so I can ask 
another question.
    Ambassador Frechette. Yes, sir.
    Mr. Hastert. You were talking about the human rights 
negotiation that you were having, I would guess, with General 
Bedoya or the----
    Ambassador Frechette. Minister of defense.
    Mr. Hastert [continuing]. Minister of defense, that's 
right. And one of the things that you said is that one of the 
points that you're looking for--you're never specific. What are 
you asking? What are you asking that they aren't delivering 
specifically?
    Ambassador Frechette. All right. They have to understand 
that if the Secretary of State reaches a conclusion that there 
is credible evidence of gross human rights violations by a unit 
of the Colombian armed forces----
    Mr. Hastert. Right.
    Ambassador Frechette [continuing]. And that that process is 
not being taken care of by the regular judicial process in 
Colombia, then assistance should be cutoff to that unit. That's 
what I am asking for specifically.
    Mr. Hastert. I have a letter here from General McCaffrey 
written to General Bedoya. And it goes onto the issue of human 
rights. And I'm just going to take part of it. But I'll start 
in the middle of this paragraph. ``It's a respect for 
democratic institutions and individual rights. I know you and I 
are in complete agreement on the importance of the armed forces 
as protecting and promoting human rights. Your leadership in 
this issue will continue to be vital.''
    Now, you're saying that Bedoya and others--you have a 
suspect that they'll be able to do this. There seems to me a 
conflict in this letter and what you're saying.
    Ambassador Frechette. No, sir. I asked General McCaffrey to 
write that letter.
    Mr. Hastert. June 20, 1997.
    Ambassador Frechette. I also asked him to call. Yes. And I 
also asked him to telephone General Bedoya. I also asked 
General Clark at SOUTHCOM to telephone General Bedoya to make 
him understand that this is what we are offering Colombia and 
that they should not lose this opportunity to gain assistance 
from the United States. It is my understanding although I have 
not personally spoken to both of those generals, that they 
intend to make that pitch to General Bedoya.
    Mr. Hastert. Well, my time has expired. And I'm going to 
yield to the gentleman from Wisconsin.
    Mr. Barrett. Mr. Chairman, I would yield to Mr. 
Blagojevich. I think I have a vote in another meeting, so I'll 
come back for another round. If you'll excuse me.
    Mr. Blagojevich. Thank you, Mr. Barrett. I would like to 
direct this question to Ambassador Frechette. Ambassador 
Frechette, a top general in the Colombian Army recently made 
press statements to the effect that he was unwilling to sign a 
human rights end use monitoring agreement with the United 
States.
    Ambassador Frechette. I'm sorry, sir, could you repeat 
that? I didn't hear you.
    Mr. Blagojevich. A top general in the Colombian army has 
recently made press statements--I believe it's General Bonett--
to the effect that he was unwilling to sign a human rights end 
use monitoring agreement with the United States. Could you 
provide more details about that, and that impasse with the 
Colombian Army?
    Ambassador Frechette. Yes, sir. I have not discussed this 
issue with General Bonett. I have discussed it with the 
minister of defense. It's a democratic government and they have 
a civilian minister of defense. That's who I deal with. 
Occasionally the minster brings in the generals. I have never 
discussed this issue with General Bonett.
    General Bonett has on at least two occasions publicly said 
for domestic consumption, obviously, that he refuses to sign 
anything that would condition any assistance from the United 
States to any human rights concerns. Now, that is not the 
official position of the Government of Colombia. In fact, the 
Government of Colombia continues to assure me at the 
ministerial level, and the foreign minister level and even the 
president, that the they wish to receive that assistance if we 
can work something out.
    So, General Bonett has said it twice. He's said it very 
clearly. But, again, he doesn't represent, in my view, the 
views of the Colombian Government.
    Mr. Blagojevich. His failure to sign any kind of end use 
agreement does not necessary preclude aid to the Colombian Army 
or the Colombian Government, is that right?
    Ambassador Frechette. I think what he's referring to, sir, 
is this 506 and now 614 drawdown. The assurances that I've been 
specifically instructed to get. I think that's what he's 
referring to. But I have not even discussed his public 
statements with him because he and I see each other very 
infrequently and we just haven't had a chance to sit down 
together so that I could really know what it is he means.
    Mr. Blagojevich. OK. In the last 3 minutes or so that I 
have, could you just tell us, in your experience down in 
Colombia, perhaps the difference in terms of the Colombian 
national police and how they've been in terms of working with 
the United States Government, vis-a-vis, the Colombian 
military?
    Ambassador Frechette. Yes, sir. I'd be happy to do that. 
The Colombian national police reports to the minister of 
defense but does not report through the military command 
structure. They have procedures that allow the director of the 
national police, General Serrano, or whoever the director 
happens to be, to remove in an expeditious manner officers and 
enlisted men who have been accused of corruption or other 
violations of Colombian law.
    General Serrano and Colonel Gallego, who works for him as 
the head of the counternarcotics police, are extremely careful 
to make sure that the 2,500 men in the counternarcotics police 
understand that human rights is, along with counternarcotics, 
job one.
    Mr. Blagojevich. Now, could I just interject just briefly? 
And the two of them--General Serrano and Colonel Gallego--it's 
fair to say, try to press upon the United States, those that 
they seek aid from, that they are in fact going the extra mile 
on this issue of human rights? Is that fair to say?
    Ambassador Frechette. Yes, sir. And I know them both 
personally. I spend a great deal of time with them even 
socially. And I'm here to tell you that all the evidence I have 
had in my 3 years in Colombia is that they take special pains. 
And if anything comes up about anybody in the counternarcotics 
police, any kind of a shadow at all, they either transfer them 
out of the counternarcotics police to some other branch of the 
police or, in fact, fire them.
    Now, the process in the military, Army, Navy and Air Force, 
is nowhere near as expeditious and does not give the commanders 
the latitude that the commander of the national police has. And 
while I don't know the origin of that, I suspect it's simply 
that the national police works closer to the people and is 
perhaps more sensitive to human rights concerns and public 
concerns.
    Mr. Blagojevich. From the standpoint of the United States 
and our ability to help them, that makes it, of course, a lot 
more difficult, does it not, working with the Colombian 
national military with regard to monitoring how they use our 
money and how they use our equipment?
    Ambassador Frechette. Yes, sir. It makes it more difficult. 
We--I have put in place a more thorough end use monitoring 
process which is not perfect, I can assure you. I don't have 
enough people at the post and I can't put my military officers 
in harm's way to send them where the Colombian Army is fighting 
to verify that every piece of equipment is used only for 
counternarcotics.
    But I feel, as I told you in Bogota when you asked me a 
similar question, I feel that this is about as good as it's 
going to get. And I am prepared to testify before any committee 
of Congress that based on the information in the process that 
we have set in place, I would feel relatively comfortable about 
coming here and saying to you that the equipment is being used 
for the purposes for which it was intended by the U.S. taxpayer 
and the Congress.
    Mr. Blagojevich. Thank you.
    Mr. Hastert. Just briefly, Mr. Ambassador, you just said 
you didn't have enough people in post. What kind of people 
might those be that would help you make those decisions?
    Ambassador Frechette. Well, sir. I am prohibited from 
sending military officers into a zone of conflict.
    Mr. Hastert. The question is that you didn't have enough 
people in post. What kind of people do you need?
    Ambassador Frechette. Well, I don't have enough people in 
the military group who are familiar with this kind of stuff who 
could do that. But even if I did, I cannot send them into 
harm's way, Mr. Chairman.
    Mr. Hastert. Fine. You just said that you didn't have 
enough people in post to make that decision.
    Ambassador Frechette. That is correct.
    Mr. Hastert. I just wanted to clarify that, thank you.
    Ambassador Frechette. No. It's not to make the decision, to 
be able to--I cannot, as I told you in Bogota, it is to 
guarantee, Mr. Chairman, that absolutely everything is being 
all the time for the purposes intended.
    Mr. Hastert. I recognize the gentleman from Florida.
    Ambassador Frechette. But I would like to be able to assure 
you that I am satisfied that it is so.
    Mr. Mica. Thank you, Mr. Chairman. Last year, I was down 
with the committee and we visited, of course, Peru, Colombia, 
Bolivia. Peru is doing an excellent job on air strategy, 
containing some of the drug trafficking. And we surmised the 
need of a riverine strategy. It's my understanding that the 
United States Marine Corps has had a full blown riverine 
program at Camp Lejeune, NC, where they've been training 
Colombians for 10 years.
    Mr. Newberry, you had testified earlier that the DOD 
doesn't have the boats or the personnel to operate such a 
program or assist with such a program. What are you talking 
about here?
    Mr. Newberry. No, sir. What I said was, we're able to help 
other countries in the air side and helicopter side often with 
equipment by giving them excess equipment or with 506 
drawdowns. We don't have that luxury with providing that 
equipment to Peru and Colombia as far as small boats go. The 
Marines have boats that we bought for them to help train 
foreign nations on operating small boats, but we don't have the 
number where we could take away boats from the Marines or the 
special forces and send them down country to create a large 
riverine force or units.
    Mr. Mica. So all you can do is the training?
    Mr. Newberry. That's all we can do right now, is train. 
Now, we had some drawdown to small boats, but we're talking 
about three, four, half dozen.
    Mr. Mica. I thought there was some request to provide some 
assistance in equipment last year.
    Mr. Newberry. We have new legislation we're asking for this 
year.
    Mr. Mica. Last year.
    Mr. Newberry. Last year, there was a 506 drawdown of, I 
think, a half dozen. I'd have to look at the boats. Some Mark 
3s. And we did provide those. We took them--special forces had 
some extra boats. And we did accomplish that drawdown.
    Mr. Mica. They were provided and they are there?
    Mr. Newberry. Yes.
    Mr. Mica. OK. Ms. Becker, INL funds for riverine strategy. 
What's the status as far as Peru? Have the boats been ordered?
    Ms. Becker. Mr. Chairman, the equipment that INL provides 
to foreign governments is generally EDA--excess defense 
equipment--provided under various DOD drawdowns. We do not have 
a budget. As I indicated, our annual budget worldwide is 
slightly over $200 million. We simply do not have the kind of 
funds available in there to engage in equipment purchases.
    Mr. Mica. We had talked with Ambassador Gelbard last year, 
wasn't it--your predecessor--and I thought we were ordering 
boats. There was a manufacturer that was waiting on an order.
    Ms. Becker. I'm not familiar with the specific 
conversations, sir. I will check into it and get back to you on 
the details.
    [The information referred to follows:]

    Six Boston Whaler riverine patrol craft were designated 
under the 506(a)(2)
drawdown for Peru and Colombia. These boats are being drawn 
from Department
of Defense stocks and should be delivered to Peru and Colombia 
in September 1997.
We are unaware of any commitment made by the U.S. government to 
purchase
newly manufactured boats for riverine patrol in Peru. Section 
506 drawdown only
authorizes the drawdown of existing stocks for counternarcotics 
use, not the pur-
chase of new equipment.

    Mr. Mica. Well, we have a riverine strategy, we're 
providing training, and we're not assisting--I thought the last 
hearing we had, that there was either an acquisition in 
process--INL.
    Ms. Becker. I'm sorry, sir, but I'm not familiar with any 
commitment that was made to provide riverine boats to any 
country from INL funds. As I said, we generally, in the case of 
equipment, rely on excess defense equipment or other types of 
drawdown. We do not generally provide new equipment, because we 
simply do not have the funds.
    Mr. Hastert. Would the gentleman yield for just a second?
    Mr. Mica. Yes.
    Mr. Hastert. You might want to read the appropriation 
report to your department.
    Mr. Mica. Ms. Becker, the CNP has less than 2 weeks 
ammunition left and they're fighting and dying as I understand 
it everyday in their war against the narcotraffickers. Can you 
explain why that we've had a delay in delivery of 506A drawdown 
assistance of ammunition that was slated for delivery June 30 
of this year?
    Ms. Becker. My understanding of the situation is that the 
first available transport for that ammunition would have been 
on July 7. However, at the request of the country team, that 
flight was delayed. And it will go now on Saturday. And the 
ammunition will be delivered on Saturday the 12th.
    Mr. Hastert. Clarification, who is the country team?
    Ms. Becker. The Embassy in Bogota.
    Mr. Hastert. So that's the Ambassador.
    Ms. Becker. The Ambassador and his----
    Mr. Hastert. Thank you.
    Mr. Mica. So you're telling us now that it will be there on 
the 12th. Are there any other items remaining for delivery to 
the Colombian national police other than ammunition?
    Ms. Becker. Yes, sir. There are two C-26 aircraft which are 
currently undergoing refurbishing.
    Mr. Mica. When will they be delivered?
    Ms. Becker. As soon as that is finished, which should be--I 
can't give you an estimate, but it should be hopefully by the 
end of the year. And I can give you a specific date. I'm not 
familiar off the top of my head on the date.
    Mr. Mica. Could you supply the subcommittee with that 
information?
    [The information referred to follows:]

    Delivery of the C-26 aircraft for Colombia is tied to the 
training of Colombian National Police (CNP) pilots and 
mechanics. The U.S. Air Force has scheduled CNP pilot and 
mechanic training beginning 22 September 1997. Delivery of the 
aircraft will take place at the end of October 1997.

    Ms. Becker. Yes.
    Mr. Mica. Mr. Chairman, I'd like that as soon as possible, 
hopefully within the next week that we could get a date 
certain.
    Ms. Becker. Yes.
    Mr. Mica. Can you tell me, is there any other equipment 
under the drawdown items remaining for delivery?
    Ms. Becker. For the police I will have to get back with 
you. The items I'm familiar with off the top of my head are the 
ammunition and the C-26 aircraft. The C-26 are certainly the 
largest. But I will get that information to you tomorrow.
    Mr. Mica. Mr. Chairman, I'd have the same request that that 
be delivered to the subcommittee immediately. Thank you.
    Mr. Hastert. The gentleman from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman.
    Ambassador Frechette. Mr. Chairman, may I make a comment 
please to a question raised by Mr. Mica?
    Mr. Hastert. I think we'll address you at a certain time. 
Let the gentleman from Wisconsin.
    Ambassador Frechette. OK.
    Mr. Barrett. Thank you, Mr. Chairman. Go ahead, Ambassador.
    Ambassador Frechette. OK. Thank you very much, Mr. Barrett. 
Mr. Mica, the reason why I asked for a delay in that C-5A 
flight was because, in addition to the ammunition for the 
police, there was also equipment there for the Air Force and 
the Navy. It makes no sense to ask the Ambassador to seek 
certain assurances from the Colombian Government and to keep 
pouring in equipment that the Colombian Government has not yet 
agreed to receive and deal with in accordance with the 
instructions given to me by the Department.
    So I asked that that flight either be delayed or that only 
the equipment for the police be delivered. The Department's 
decision was to put it off for a week in the hope that I could 
get the Colombian Navy and Air Force to agree. They have not 
agreed. I would hope that that flight comes only with the 
equipment for the police.
    Now, what we have not delivered yet to the police out of 
the 506(a)(2) drawdown is flight crew equipment, field 
equipment, field rations, boots, ammunition--2 million rounds--
and communications gear and two C-26 aircraft. That is what we 
have not yet delivered to the Colombian national police.
    But, again, I did not say to stop the flight and prevent 
the ammunition to get to the Colombian national police. I asked 
that the stuff for the Air Force and the Navy be taken off of 
that flight so as not to undercut what the Department is asking 
me to negotiate with the Colombians, which is, get them to 
agree to the end use monitoring provisions.
    I just wanted to make that for record, sir, because I think 
the chairman thought that I had stopped ammunition going to the 
police.
    Mr. Barrett. I'd like to try to bring the 506 and 614 
together.
    Mr. Hastert. I'm just going to say that I'm starting your 
time from scratch.
    Mr. Barrett. Thank you, Mr. Chairman. It's my 
understanding--correct me if I'm wrong--that the 506 drawdown, 
that is going to the police? Who is that going to? Is that 
going to the military or is that going to the police?
    Ambassador Frechette. No, sir. It was going to the police, 
the Army, the Navy and the Air Force.
    Mr. Barrett. So it is going to the military as well?
    Ambassador Frechette. Oh, yes.
    Mr. Barrett. OK.
    Ambassador Frechette. If they will agree to the conditions.
    Mr. Barrett. Well, I guess that's my question. They 
obviously have not agreed to the conditions. So up to this 
point, who has it gone to?
    Ambassador Frechette. All right. We have delivered to the 
Colombian Air Force only the 12 helicopters that we promised 
them. They arrived in Santa Marta. Before the chairman arrived. 
And they are being utilized by the Colombian police now.
    Mr. Barrett. OK. Even without--obviously you don't feel 
that it's necessary to have end use type monitoring for that.
    Ambassador Frechette. No, sir. And I'll tell you why, Mr. 
Barrett. Because all that assistance goes only to the 
counternarcotics police. Therefore, by definition, it is used 
only for counternarcotics. Second, they have taken 
extraordinary pains to avoid human rights violations, at least 
during my 3 years. Therefore, the human rights concern does not 
exist.
    Mr. Hastert. Would the gentleman yield for a second?
    Mr. Barrett. Yes.
    Ambassador Frechette. Did I say the Air Force, I beg your 
pardon. They went to the police, not the Air Force. I misspoke, 
myself.
    Mr. Hastert. The police, not the Air Force.
    Mr. Barrett. OK.
    Mr. Hastert. Thank you.
    Mr. Barrett. I think you both corrected him. Let's go to 
the 614. Now, the 614 process basically has just begun, though. 
Am I correct there? And what are your intentions there?
    Ambassador Frechette. Well, again, until we get the 
assurances from the Army, Navy and Air Force, it is my 
understanding that we will deliver none of the 614 to them 
until they give us the assurances. We will, however, be able to 
go forward with the national police.
    Mr. Barrett. OK. So your position is absent the end use 
monitoring agreement from the military, they will not obtain 
these?
    Ambassador Frechette. It's not my position, Mr. Barrett, 
it's the instructions that I received in writing from the 
Department of State.
    Mr. Barrett. That's fine. I'm not quibbling as to whose 
instructions they are. I just want to make sure what the United 
States' policy is.
    Ambassador Frechette. Yes. The reason I made that 
clarification is that some Members seem to be under the 
impression that I'm inventing stuff, when, in fact, I receive 
direct written instructions from the Department of State.
    Mr. Barrett. OK. I understand Mr. Barr's criticism based on 
the Leahy amendment, that he feels that the human rights 
allegations don't come into play other than for the 
international narcotics control funds. But could you tell me 
from a practical perspective, if you were to have restrictions 
on one source of funds and not on another source of funds, what 
would be your way to monitor that? Again, I say that--and, 
again, I understand where Mr. Barr is coming from.
    Ambassador Frechette. It would be incredibly difficult. It 
would be very difficult if we had one kind of restriction on 
some stuff and a different one on another, obviously. But what 
we're talking about here is counternarcotics assistance--only 
counternarcotics assistance. And the Department has taken the 
spirit of the Leahy amendment and made a policy decision that 
it applies to the 506(a)(2) drawdown as well as to the 614.
    Mr. Barrett. And do you know of--and maybe Mr. Barr will 
address this--as I look at the 614 procedure, I see where the 
President is the one who initiates this--or the executive 
branch of the State Department----
    Ambassador Frechette. Yes.
    Mr. Barrett. Although I don't see the expressed language 
that you have for the Leahy amendment that applies to the other 
funding, I also don't see the converse that says he cannot 
fashion some sort of conditions on doing that. I mean, what is 
your position on that?
    Ambassador Frechette. Well, sir, I have done my level best 
for 9 months to carry out the instructions of the Department of 
State. I have been unable to do so because the Colombians 
refuse to give us the assurances required by the United States 
Government.
    Mr. Barrett. Let me ask Mr. Thessin or Ambassador Becker 
what your understanding is as to the conditions that the 
President or the executive branch can put on a 614 release. In 
other words, I'm asking you to respond to Mr. Barr's 
statements.
    Ms. Becker. Yes. As a matter of policy, the administration, 
taking account of the views expressed by members and staff of 
the House and Senate appropriations and authorization 
committees----
    Mr. Barrett. Let's not get into that.
    Ms. Becker. But I just want to make it clear.
    Mr. Barrett. OK.
    Ms. Becker. Made a policy decision--the administration made 
a policy decision that all counternarcotics assistance, 
regardless of source, including 614, including 506(a)(2), 
including the INL/INC account would be covered by Leahy 
provisions. The 614 proposal which is going to be consulted 
later on this week is based on that. And the proposal is that 
any service which agrees to appropriate end use monitoring 
regime will be eligible to receive funding or equipment under 
614.
    Mr. Barrett. Are you aware of anything that prohibits you 
from doing that?
    Ms. Becker. Pardon?
    Mr. Barrett. Are you aware of anything that prohibits you 
from doing that?
    Ms. Becker. No. This is a matter of policy. And I realize 
that there are some people present who disagree with that 
policy, but it is a matter of administration policy.
    Mr. Barrett. I saw you nodding your head. What is your 
response?
    Mr. Davidow. The answer is no unless Congress wishes to 
pass legislation prohibiting the President from considering 
human rights criteria in terms of 614 or 506A. The President is 
in accordance with his executive powers and substantial 
elements of United States policy, not only in Colombia, but 
elsewhere in the world relating to human rights. He has the 
authority and, indeed, the responsibility to use human rights 
considerations in such matters.
    Mr. Barrett. OK. Thank you. And if I could briefly turn 
to--and I'm sorry, I don't see your name there. Mr. Thessin, is 
that correct?
    Mr. Newberry. No. Newberry.
    Mr. Barrett. I'm sorry. Mr. Newberry. How closely has the 
Department of Defense been working with the State Department on 
the riverine interdiction effort?
    Mr. Newberry. Very closely. Daily. In fact, I have a 
meeting tomorrow with State Department to discuss how we're 
going to--the process of developing the final plan.
    Mr. Barrett. And has there been any discussion of having 
the State Department actually oversee this as opposed to 
Defense?
    Mr. Newberry. I guess I've never looked at it that way, as 
somebody overseeing something. SOUTHCOM and the country should 
be working together on implementing a plan, if we're using DOD 
appropriations and DOD people, to put together a plan to do 
that.
    Mr. Barrett. The reason I ask that is because of the report 
language that raised that concern, but I think I'm out of time. 
So I yield back the balance of my time.
    Mr. Hastert. Just a couple of clarifications for the 
record. Ambassador Becker, basically, then, you take 
responsibility for giving Ambassador Frechette the ability to 
lever or use the leverage of holding up the ammunition to the 
CNP to get assurances out of the military. Is that your 
position?
    Ms. Becker. No, sir. That is not.
    Mr. Hastert. But he said that he had instructions from you 
to do that.
    Ms. Becker. No, sir. That is not----
    Mr. Hastert. You didn't do that? Somebody else did that?
    Ms. Becker. No, sir. That is not factual. The ammunition is 
going to the CNP, as I said, on a flight that's going on 
Saturday.
    Mr. Hastert. It's not going to the CNP. It's being held up.
    Ms. Becker. No. It's going on a flight on Saturday.
    Mr. Hastert. I pass to the gentleman from Georgia.
    Mr. Barr. Mr. Chairman, I'm almost but not quite at a loss 
for words here after listening to this. But first, let me ask 
unanimous consent to have five letters inserted into the 
record. These were from Chairman Burton.
    Mr. Hastert. Without objection.
    Mr. Barrett. Without objection. Those are all letters from 
Chairman Burton?
    Mr. Barr. They're letters that he wanted to have inserted 
into the record.
    Mr. Barrett. But what I'm asking, are they all letters from 
him?
    Mr. Barr. No.
    Mr. Hastert. Would you like to take a look at them?
    Mr. Barrett. Yes. And I reserve the right to object after 
that.
    [The information referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Barr. It's really difficult to know where to start, Mr. 
Chairman. I have heard some of the most astounding statements 
born, I don't know whether it's of abject ignorance or absolute 
arrogance, today. We have an Ambassador saying that because it 
might be incredibly difficult to determine the applicability of 
a certain law, they just ignore it.
    Then we have an Ambassador stating that despite a law 
passed by Congress and signed by the President that mandates 
that certain personnel in our national security interest be 
placed in an Embassy, because he believes there's not 
sufficient space, it does not happen.
    We have an official from the State Department that says the 
State Department can make a ``policy decision'' that would, in 
effect, change a congressional law. Now, I don't know what's 
going on here, Mr. Chairman, but I would certainly hope that 
the Inspector General's Office at the Department of State would 
look into what I think are very clearly ultra vires actions.
    There may be somebody over there that can look that word 
up. It means operating outside of a legal mandate. We have the 
Leahy law and we have already established here today that it 
applies only to INL moneys. And in that Leahy law we have 
already established today that in it is found the language to 
the effect that if there is credible evidence to believe that 
such unit has committed gross violations of human rights, then 
the funds otherwise available wouldn't apply.
    Let me bring two other things to the attention of our 
learned witnesses today. Section 614, which we have talked 
about today, is not effected by Leahy. I also have, Mr. 
Chairman--I would like unanimous consent to insert this into 
the record--a ``Draft Memorandum of Understanding: End Use 
Monitoring.''
    Mr. Hastert. Without objection.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Barr. This, apparently, is the document--and I don't 
whether anybody here today will own up to authorship of this 
document? The legal office? Draft memorandum of understanding: 
end use monitoring between the Government of the United States 
of America and the Government of Colombia, concerning 
procedures to be employed regarding the transfer, use, security 
and monitoring of articles, services and related training which 
may be transferred to the Government of Colombia by the 
Government of the United States of America.
    Mr. Davidow. That was probably part of the instructions. 
Without having seen the full document I can't attest to it, but 
it's probably part of the instructions that were sent to 
Ambassador Frechette from the Department of State urging him to 
present that to the Government of Colombia for negotiation.
    Mr. Barr. OK. Now, this document, which is now part of the 
record--it is not limited in its terms to INL matters, but 
applies very broadly to basically all transfers of equipment or 
training or services from the United States to Colombia. And 
apparently this is being attempted to be forced on the 
Colombians as a requirement for them to receive anything from 
the United States of America.
    And in it one of the requirements is the language from 
Leahy.
    Mr. Davidow. Mm-hmm.
    Mr. Barr. Now, where does the United States Department of 
State get off interjecting between lawful transfer of 
equipment, services and so forth to Colombia that are not 
prohibited by Leahy by simply making a policy decision, 
drafting up a memorandum of understanding, sending it to the 
Ambassador, and in effect telling him, ``Don't give this stuff 
to the Colombians because we want Leahy to apply even though 
Congress did not make Leahy apply?''
    And don't give this business that simply because there's no 
law that says we can't do it, we can do it. Let's go back to 
legislative interpretation 101. If you have transfer authority 
for category A and transfer authority to category B, and let's 
say there are no restrictions placed on them--Congress comes 
along in the person of a hypothetical Senator Leahy and says, 
``I'm going to place a certain restriction on category A.''
    You cannot then say, ``Well, simply because it wasn't 
placed on B and simply because there's no law that says it 
can't be placed on B, we can therefore place those same 
limitations that are placed by law on category A transfers to 
category B.'' You can't do that.
    Congress intended for these types of military equipment 
that we're talking about--and that is non-INL transfers--to get 
to the Colombians. The President has said in the 614 waiver 
now, which says explicitly that these other restrictions don't 
apply. These are other laws that explicitly don't apply.
    Now I know the State Department legal advisor is just 
sitting very quietly and disavowing any knowledge of anything 
here today, but could somebody shed some light on where the 
Department of State gets its legal authority to override the 
laws of this country, make up laws, simply based on some very 
broad interpretation of policy, not apply laws because it might 
find it incredibly difficult to do so? Where do you all get the 
authority to do those things?
    Mr. Davidow. Congressman, obviously I can't enter into a 
constitutional debate with you.
    Mr. Barr. Yes, you can. I'm asking you to.
    Mr. Davidow. OK. I will. Thank you. I was actually trying 
to be polite.
    Mr. Barr. You don't need to be polite. Just be honest.
    Mr. Davidow. OK. I am honest. And I hope I'm not one of the 
people that you think is either ignorant or arrogant. By a 
standard of common sense, if we're putting the same kinds of 
equipment into a country under various authorities that are 
going to be used perhaps by the same units--if that unit gets 
its left boots under one authority and its right boot under 
another authority, if we're going to maintain any sort of 
consistency in terms of end use monitoring, then we ought to 
have a consistency in the standards that apply.
    Mr. Barr. Congress has already made those decisions in the 
different laws that it passes and the different requirements on 
different categories. And if you all don't like it, wouldn't 
the proper remedy be to come back to the Congress and say, ``It 
is impossible to make the distinctions here. We need to have 
the same restrictions apply across the board.''
    You're trying to come in through the back door what 
Congress has not authorized you to do in the front door.
    Mr. Davidow. Well, I think there is room here for 
congressional activity. In fact, as Ambassador Becker said----
    Mr. Barr. There already has been.
    Mr. Davidow. No. I think as Ambassador Becker said----
    Mr. Barr. There's been Presidential authority, too.
    Mr. Davidow [continuing]. The certification legislation 
which was passed by Congress, I think, inadvertently--or 
perhaps advertently--eliminated our ability to give FMF and 
IMET assistance to countries that have been decertified. That 
only became apparent when Colombia was decertified, because the 
countries that had been decertified before Colombia had not 
received such assistance.
    Attempts to discuss with Congress or within Congress itself 
to amend the certification legislation apparently did not 
prosper.
    Mr. Barr. May I ask unanimous consent just to ask one final 
question.
    Mr. Hastert. And then we'll move on to Mr. Blagojevich.
    Mr. Barr. Can we have your assurances on behalf of the 
State Department and the United States Government here today 
that in light of the President's 614(a)(2) waiver, that this 
memorandum of understanding which tries to apply the 
restrictive language of Leahy to FMF and everything else, is no 
longer operative, no further efforts whatsoever will be made to 
force it on the Colombians in light of the fact that the 
614(a)(2) waiver, which clearly states that these other 
provisions of law don't apply, that those efforts will 
completely cease and desist?
    Mr. Davidow. No. I cannot give you that, sir.
    Mr. Barr. Can we have those assurances from anybody today? 
Mr. Ambassador?
    Ambassador Frechette. Sir, I cannot give you that 
assurance.
    Mr. Barr. Why not? You just want to ignore the language of 
614(a)(2)?
    Ambassador Frechette. Sir?
    Mr. Barr. Is this another law you just choose to ignore?
    Ambassador Frechette. The way Ambassadors operate is they 
get their instructions from the Department of State and they 
carry them out.
    Mr. Barr. Sir, they get their instructions from the laws of 
the United States of America.
    Ambassador Frechette. I'm sorry, sir. I cannot make that 
distinction.
    Mr. Hastert. The gentleman's time is----
    Mr. Barr. Unbelievable.
    Mr. Hastert. The gentleman from Chicago, IL.
    Mr. Blagojevich. This won't be as difficult. I'll try to be 
kinder and gentler, although I'm happy to yield some of the my 
time to Representative Barr, because he certainly is exploring 
a lot of issues that need to be explored.
    I just want to talk about the international narcotics 
control funds and the general principles. And I'm going to 
direct this question to Mr. Davidow--and, perhaps if you want 
to refer to some other member of the panel, that's fine. In the 
end use monitoring, are we applying those rules of end use 
monitoring in the international narcotics control funds equally 
to other countries in South America or are we just using a 
different standard for Colombia?
    Mr. Davidow. It is my understanding that we're applying our 
concerns globally about the need for end use monitoring on 
international narcotics funds to take into consideration human 
rights factors. I'll ask Ambassador Becker if she wants to make 
a comment specifically relating to one or other countries.
    Mr. Blagojevich. I wish you would.
    Ms. Becker. Thank you. That is correct. I should note that 
the only country in which we've had these difficulties arise 
has been Colombia. Thank you.
    Mr. Blagojevich. How are we doing in Peru? Are we providing 
funds to Peru and are they complying with end use monitoring 
with the United States?
    Ms. Becker. Yes.
    Mr. Blagojevich. And Bolivia?
    Ms. Becker. Same thing.
    Mr. Blagojevich. OK. So Colombia is different from every 
other country in South America?
    Ms. Becker. The only country in which we are having 
substantial difficulties with the end use monitoring provisions 
as they relate to Leahy is in Colombia.
    Mr. Blagojevich. And, more specifically, in Colombia the 
problem has less to do with the Colombian national police and 
more to do with other aspects of the Colombian Government?
    Ms. Becker. Yes, sir. The problem in Colombia has nothing 
to with the Colombian national police. It has only to do with 
the Colombian military.
    Mr. Blagojevich. OK. It's also the position of the State 
Department that the FARC and some of the revolutionary groups 
down there, whether they be on the right or on the left, are 
not friends of the U.S. Government. Is that fair to say?
    Ms. Becker. Absolutely not.
    Mr. Blagojevich. And, so, we certainly would like to hold 
members of the FARC accountable to human rights violations if 
we were in a position to do that? Is that fair to say?
    Ms. Becker. Yes.
    Mr. Blagojevich. OK. Thank you.
    Mr. Hastert. Well, this has turned out--what I thought 
would be a routine hearing has turned into something that I 
think is just incredible. Mr. Davidow, you want to go into the 
doctrine of common sense. I'm not sure that's written into law. 
I'm not an attorney or a lawyer, so I wouldn't even know where 
to look for that doctrine of common sense.
    But I've tried to do common sense things around here for 
the 11 years I've been in Congress. But to me common sense 
would mean that the Ambassador wouldn't hold up the shipment 
especially when the CNP is running out of ammunition. I would 
think that they could sort that stuff out at the Santa Mar. 
Take military out and police stuff out and supply that. I don't 
know why we couldn't do that.
    We have helicopter hulks sitting there and other things. 
That would be common sense to me to separate out and give it to 
the good guys and withhold where you suspect. We didn't do 
that. That is another doctrine of common sense.
    The other doctrine of common sense is whose human rights 
are we protecting. And what the law that you hold up is that 
for none of these funds made available under the heading may be 
provided to any unit of the security forces of a foreign 
country if the Secretary of State has credible evidence--has 
credible evidence--to believe that such units has committed--
past tense--gross violations of human rights.
    Now let me just tell you. You're there. I was there. Been 
down there twice. You're getting people--Army people--shot up 
by the FARC. You're getting shot up by narcotraffickers, 
getting people shot up by paramilitary groups that support the 
narcotics business people. Whose human rights are we 
protecting?
    It seems to me that you're protecting the human rights of 
the FARC. You're protecting the human rights of those people 
who are breaking the law. And you're protecting the human 
rights of people who want to transgress against the children of 
this country.
    We lost 20,000 people on the street corners of this country 
last year--20,000--either to narcotics or violence from street 
gangs and narcotics. 20,000, Mr. Ambassador. What about their 
human rights? What about the human rights of their families? 
What about the human rights of those people in those 
communities who are being ravaged by drugs and narcotics, most 
of them coming from Colombia day in and day out.
    And we're saying--you're saying that you're holding up the 
ammunition that these people can fight and stop 
narcotraffickers, because they want to stop narcotics in their 
own country and moving into our country. But no. What we're 
doing is holding up their ability to stop narcotics. The FARC, 
Mr. Ambassador, who, we understand, can bring in up to $6 
million a month, because they're involved in narcotrafficking. 
And they used to get their money from Fidel Castro in Cuba.
    And they used to get their money from Eastern Europe but 
that money was shut down. Now they get their money from 
narcotraffickers and being in the narcotics business. But the 
very people that want to be counter to them, to fight them, to 
stop narcotics, especially coming into this country, we're 
holding up aid and we're holding up ammunition to those people 
to try to help us.
    Where is common sense? Mr. Davidow, tell me about common 
sense doctrine here, would you, please?
    Ambassador Frechette. Mr. Chairman----
    Mr. Hastert. I'm asking Mr. Davidow.
    Ambassador Frechette. You asked a question.
    Mr. Hastert. I asked Mr. Davidow.
    Mr. Davidow. Mr. Chairman, I'm not concerned about the 
human rights of the FARC. I'm concerned about credible evidence 
that has existed over time of human rights violations that 
security forces in----
    Mr. Hastert. Then let me ask you----
    Mr. Davidow. Well, are you interested in my answer or not?
    Mr. Hastert. I'm asking this question. The law says that 
you have to provide any unit of the security forces of a 
foreign country--the Secretary of State has credible evidence 
to believe such unit has committed gross violations of human 
rights. Has that happened? Has the CNP done that?
    Mr. Davidow. No, sir. We believe the CNP has----
    Mr. Hastert. But you're holding up their ammunition?
    Mr. Davidow. Sir, the CNP's ammunition will be there on 
Saturday. The issue that we're trying to negotiate now with the 
Colombian military services is that they accept the concept 
that if a unit does have credible human rights charges against 
it, they will take the appropriate action. I don't think that 
is illogical.
    Before we can give them the assistance that we would like 
to give under 506A and 614, we ask that they accept that as a 
concept, but that has not been done as of yet. That's what 
we're trying to negotiate. We've had that idea accepted on a 
couple of occasions and then they have pulled back.
    Mr. Hastert. You see, Mr. Davidow, I think you're being a 
little silly. I see the drug threat to this country and to the 
children of this country being something that we can't hardly 
describe. Kids in my district are getting crack cocaine. 
They're finding heroin on the street delivered by crack cocaine 
dealers, because it's coming from Colombia and they're using 
the same distribution system. And they're getting killed.
    And gangs. I spent all day Monday having hearings in my 
district about gang violence being funded by heroin, crack 
cocaine, and marijuana. And kids getting killed and families. A 
mother watching her son being shot down on the steps of a 
courthouse in Sycamore, IL--a rural community--because of drug 
involvement.
    And you're bringing piddly little ``If this happened,'' to 
stop people from having the wherewithal to stop drugs in this 
country. And in my opinion, you're aiding and abetting a very, 
very serious enemy. And that's not acceptable to me. And I 
don't think that's acceptable to most people in this Congress.
    I don't care how you stretch a common sense theory or 
doctrine. It doesn't make very much sense to me. And what 
you're doing is helping a very, very dark and evil group of 
people play their trade. Because you're taking the ability for 
the people who want to stop that away. I don't how you explain 
and I don't apply your doctrine of common sense to that. 
Because I think it's a little bit twisted.
    Mr. Barrett. Thank you, Mr. Chairman. Although I share the 
outrage that the chairman has stated about the drugs in 
America, I frankly think that the people who are here today are 
people who are trying to deal with this problem. And it is 
obviously a very complex problem. It is a problem that we're 
trying to fight on many, many fronts. And, Ambassador, I don't 
think you're aiding and abetting anyone who is trying to do 
anything bad.
    I think you are trying to solve a very serious problem and 
I commend your efforts in doing so. I recognize that this is a 
difficult fight. This is not a situation where we have one 
perfect country dealing with another perfect country. If it 
were, we wouldn't be sitting here today. And if the 
institutions in Colombia were perfect, there would be no need 
to have end use monitoring agreements. There would be no need 
to have legislative language, whether it applies to one type of 
assistance to another, where Congress did specifically--a 
majority of Congress did specifically say that we do care about 
human rights, that we do think that that's an important 
component.
    And I'm not here to defend the human rights of drug 
traffickers. I can guarantee there's not a single Member on 
this side of the aisle who is here to do that. But what I think 
that what we do have to do, is we do have to work together. I 
frankly don't think it's productive for us to be hurling these 
insults back and forth to each other.
    I do think that the Department of State has made some 
mistakes with the GAO. I urge the GAO to continue its fight to 
get those documents. I think that the Department of State 
should get those documents to them tomorrow. I don't see any 
reason to be holding back on any of these documents. We in 
Congress want to find out what the truth is. We want to have 
effective policies.
    We shouldn't have to be spending our time here today 
fighting over that. But I think we're making a mistake if we're 
going to say that the Ambassador to Colombia is the one 
responsible for the drug problems in the United States. Because 
I do not think you are. I don't think that the Ambassador from 
the Department of State is. I don't think anybody here today is 
responsible for it.
    I think, frankly, that the blame can be put on Members of 
Congress just as easily as it can be put on you. So I would ask 
that as we move forward, we work together. And if there are 
problems, they are not problems that should fester for several 
months. They are problems that should be handled in an adult-
like fashion and solved quite quickly. Because it doesn't 
behoove anyone to let this situation get into the type of 
situation where tempers can flare and we have people throwing 
insults back and forth to each other.
    I encourage you to do what you can to stop the flow of 
drugs into this country. And I know that you are doing that. 
And I yield back the balance of my time.
    Mr. Hastert. The gentleman from Florida.
    Mr. Mica. Thank you, Mr. Chairman. Some of the faces are 
new to our panel here. I've been on the committee since 1992. I 
was concerned then in 1993 when I got first served after the 
1992 elections, about the dismantling of some of the strategies 
that had brought down the production, transhipment of 
narcotics, and I sat on this panel when nothing was done from 
1992 to 1994.
    This panel has resurrected through the leadership of this 
chairman and the predecessor, Mr. Zeliff, really, the war on 
drugs, and particularly the war on drugs at its source, which 
is part of the topic here, which I personally believe, having 
been in this since 1981, is very cost effective.
    But we're trying to put Humpty Dumpty back together again. 
I don't know if you sense this, but there certainly is outrage 
from all the members that we are not seeing a responsiveness 
from the bureaucracy or from the agencies to get the equipment, 
to get whatever it takes to these source countries to do the 
job.
    I was down there in April of last year--a year ago, not 
this year--and we were assured that this waiver was coming. We 
wrote the President. We begged. We asked. We pleaded. The 
waiver came yesterday or the day before yesterday.
    This equipment we want there. We set the policy for the 
Federal Government under law. We've tried to legislate that 
this equipment get through DOD. If it comes through 
international narcotics office and can be expedited, we want 
that implemented. The riverine strategy--we want not just us to 
be training people in these source countries that don't have a 
boat to operate in. It's great to train them, but we've got to 
have equipment in place.
    Ambassador, I was there last year, and I was told that 
heroin is now epidemic as far as its production in Colombia--
10,000 hectares they told me were--they anticipated under 
cultivation. Is that still the case? Is heroin on the rise--the 
production?
    Ambassador Frechette. Mr. Mica, I don't think there are 
10,000 hectares. But does INL have a figure on how much? Ms. 
Becker. It's constant at 6,500, about.
    Ambassador Frechette. It's about constant at 6,500.
    Mr. Mica. About 60 percent of the heroin--DEA--is coming in 
now through Colombia?
    Mr. Marshall. Yes. That's our estimate. About 60 percent of 
the seizures at least. The Colombian heroin is predominant on 
the Eastern coast of the United States.
    Mr. Mica. See, let me put a face on it like the chairman 
did. I've had nine teenagers die in central Florida. I'm in one 
of the most prosperous districts in America. Highest per capita 
probably in Florida. They're dying in the streets. We've got 70 
percent of the people in our jails, are there because they have 
been involved in some drug-related crime. That's human rights 
violation.
    It's devastating to this country. The minority population 
of this country--the black males are getting wiped out. Four 
hundred in Washington, DC. Close to 400 of the deaths are 
young, black, potentially productive males slaughtered on the 
streets between the ages of 14 and 44. Look at them.
    Look at last week's--and this committee wants to get 
whatever resources it takes into these countries. Does heroin, 
Mr. Marshall, require a precursor chemical in big labs to 
produce heroin in Colombia?
    Mr. Marshall. Not to the extent that cocaine does. No, sir.
    Mr. Mica. Is heroin transported in small 1 kilo lots and is 
it more difficult to interdict than cocaine?
    Mr. Marshall. It's transported in much smaller lots. And, 
yes, it's more difficult.
    Mr. Mica. So, the best place to fight heroin is at the 
source. And what kind of personnel do you have down there? Are 
you getting the personnel that you need?
    Mr. Marshall. Well, we have to have a heroin strategy that 
operates across the full spectrum that the traffickers 
themselves operate. That includes domestic investigations as 
well as foreign----
    Mr. Mica. Sixty percent of the heroin coming into the 
United States now--and I was told that production is going to 
be 10,000 hectares. We're going to have an epidemic. And we are 
having an epidemic of heroin. You'll be able to buy heroin 
cheaper on the streets in my community than you can cocaine. 
When are we doing it?
    How many folks do we have? Do we have the resources in 
place? Do we have an Embassy space shortage, I'm told?
    Mr. Marshall. Well, part of the reason that we requested 
the increased of the 11 agents and 4 support personnel are to 
increase our efforts in the heroin strategy in Colombia.
    Mr. Mica. When did you request them?
    Mr. Marshall. In January of this year.
    Mr. Mica. And they're still not there.
    Mr. Marshall. Some of them are. But they're still some that 
haven't been approved.
    Mr. Mica. OK.
    Mr. Marshall. Now, we are investing at the outset of fiscal 
1997 about a little over $500,000 in heroin operations in 
Colombia. We also have a plan to get with the Colombian 
Government and establish a joint binational strategy in the not 
too distant future.
    Mr. Mica. All right. Well, we'll continue trying to get you 
whatever you need. Ms. Becker, this waiver, if we're trying to 
get boats into Colombia, will this waiver allow us to get boats 
now through FMS money--or riverine strategy, or should we just 
forget the riverine strategy?
    Ms. Becker. May I go through very briefly what the intent 
is with this package for the Colombian Navy? May I also note 
that 614 package includes FMF cases that previously existed. 
So, we are limited to some extent with regard to--we need to 
stick with what originally----
    Mr. Mica. If we get you FMS funds in this appropriations, 
are you going to block a riverine?
    Ms. Becker. Absolutely not. Sir, I would be very happy----
    Mr. Mica. So, the boats will go if we fund them?
    Ms. Becker. I would be very happy to take over 
responsibility in relation to the questions that were asked 
before of Mr. Newberry for a program similar to what Mr. 
Newberry is describing. However, the State Department has not 
had the funds available to it to make that a reality. The 
Colombian Navy--what's supposed to be given to the Colombian 
Navy in the 614 package includes spare and repair parts for 
patrol boats, acquisition of spare parts for 22-foot patrol 
boats which are used by the Colombian Marine Corps riverine 
interdiction units, vehicle spare parts, weapons spare parts, 
and ammunition.
    But there are spare parts for boats that are included in 
the 614 package.
    Mr. Mica. Mr. Chairman, just one final question of Ms. 
Becker and then I'm going to leave. Was it you that made the 
decision in 1994 to pull the plug on providing the miniguns to 
the CNP?
    Ms. Becker. Sir, I joined INL in June 1995. And so the 
history of the miniguns before that time is not known to me. 
And I would have to get--if you have specific questions I will 
endeavor to the best of my ability to get you the answers. But 
I do not know.
    Mr. Mica. So you were not involved in that decision. Thank 
you.
    Mr. Barr [presiding]. The gentleman from Illinois is 
recognized for 5 minutes.
    Mr. Blagojevich. Thank you, Mr. Chairman. I would just like 
to say that I want to commend Congressman Mica and Chairman 
Hastert for their anger and their outrage and their 
frustration, because they have a right to be. They sincerely 
love their country and want to do everything they possibly can 
to win this war on drugs. We are all very much frustrated. It's 
difficult because not all of this is in our control.
    Not all of what we can do is directly something that we 
specifically can do. We have to rely on others and other 
countries and other governments. One thing we can do, however, 
to help alleviate some of the anger, is press the Department of 
Defense and press the Senate to come up with the money so that 
we can get the resources to fight the drug interdiction program 
on the rivers, the riverine equipment. That is in more of our 
control than some of the other things.
    Relying on the Colombian Government is a whole different 
question. While, again, the testimony has been pretty 
consistent that the Colombian national police have been doing a 
pretty good job. And we've tried to provided them with the 
resources to interdict drugs. I think it's fair to have some 
doubts about the Colombian Government.
    The campaign treasurer. The Colombian president admitted 
that the president took $5.9 million in drug cartel money. 
Twelve members of the legislature down in Colombia have been 
linked to receiving pay-offs from drug cartels. Were under 
investigation for drug related corruption. Colombian 
legislators publicly acknowledge that drug traffickers 
influence the country's political system.
    One member of the Colombian Congress said that most 
political campaigns had received cartel money over the previous 
15 years. So my question is, without the end use monitoring 
agreements, how do we, the United States and the State 
Department, in that environment, track the use of our military 
equipment and our resources if they won't comply with our end 
use monitoring? And why would we trust them when we have those 
kinds of allegations and that track record? I'll send this 
question to anybody who wants to answer it.
    Ms. Becker. I think the answer is obvious. And that is that 
we can't. What we're seeking here is a workable mechanism to be 
able to do exactly what the Congressman just described. And I 
think what we've lost track of perhaps in the course of this 
hearing, is who is causing this problem. I don't think, as was 
pointed out earlier by the Congressman from Wisconsin, that 
it's the people at this table.
    I think the problem has been caused by the senior levels of 
the Colombian Government who have been insidiously toying with 
us. How else can you explain the fact that in mid-February 
Ambassador Frechette was promised by a minister of defense that 
the end use monitoring was fully agreeable, only to have a 
month later that agreement overturned by a successor?
    How can you explain that at the end of April, again, there 
was an ad ref agreement promised by the Colombian Navy and Air 
Force with regard to end use monitoring which was then 
repudiated? How can you explain that? See, what is happening is 
the senior levels of the Colombian Government, as the 
administration has consistently said, have not been cooperating 
in the fight against drugs.
    That's why we have this problem. That's why Colombia was 
decertified. And the problem is with the senior levels of the 
Colombian Government. They are the ones who are preventing the 
police and the military from getting the assistance that they 
need to protect their lives. They are the ones who cut for no 
reason the budget of the CNP, forcing the United States--my 
bureau--to come in with double the funding that we provided 
last year, which we were very happy to do. There are a series 
of incidents like this--and I'm sure Ambassador Frechette can 
embellish this as well--indicating that the senior levels of 
the Colombian Government have consistently tried to undercut 
the valiant efforts of the police and the military units who 
are supporting them. Thank you very much.
    Mr. Blagojevich. Thank you. No further questions.
    Mr. Barr. I thank the gentleman from Illinois. I would like 
to state very sincerely that I think there are some individuals 
at the witness table that are doing a tremendous amount to win 
the war against drugs. That's our DEA colleagues. Both from my 
knowledge as a United States attorney as well as my work here 
in the Congress, and most recently on our trip to South America 
that we've referenced here today, I've been uniformly impressed 
with the dedication and hard work and results by DEA both here 
in country as well as in the countries that we've visited.
    Mr. Marshall, is the zeal with which DEA agents in Colombia 
or any other foreign country approach their job, is how they 
perform their job, is the success of their job related in any 
way, shape or form to the size of their office?
    Mr. Marshall. I would say yes, sir, it is. Obviously----
    Mr. Barr. You surprise me, because I've worked in OCDETF 
programs and administered OCDETF programs in which we have DEA 
agents crammed in two and three to a small office, and they 
yield tremendous results. I'm sorry that there are some that 
won't perform if they don't get a big office.
    Mr. Marshall. No. I misunderstood your question, sir. I 
thought you meant the size of the office, referring to 
personnel.
    Mr. Barr. No. The physical size of the office.
    Mr. Marshall. No, sir. DEA agents are not generally 
particular about the physical accommodations.
    Mr. Barr. Because apparently that's a very important factor 
for the State Department. I've been to the Embassy. Now, 
granted, we did not see a lot of the Embassy down in Bogota. We 
were in a very nice facility that gave every appearance of 
being fairly large, spacious. Yet, apparently, you're not able 
to get the additional agents down that General Serrano for one, 
among many, told us, he would very much like to see down there. 
Apparently you all have a very good working relationship with 
the Colombians, is that true?
    Mr. Marshall. That's true.
    Mr. Barr. And is it your understanding as well that General 
Serrano would like very much to have additional help through 
additional DEA agents in country in Colombia?
    Mr. Marshall. Yes, Congressman, that's my understanding.
    Mr. Barr. Is it your view that those agents could be 
extremely productive in fighting the war against 
narcotrafficking?
    Mr. Marshall. I believe that we could. Yes, sir.
    Mr. Barr. Just for the record, we have not stopped the flow 
of illicit drugs from Colombia into the United States, have we?
    Mr. Marshall. No, sir.
    Mr. Barr. So there remains much to be done?
    Mr. Marshall. Yes, there does.
    Mr. Barr. Despite the fact that you all may not have the 
largest, most luxurious offices in the world.
    Mr. Marshall. Correct.
    Mr. Barr. I introduced into the record earlier an article 
from the July 8 edition of La Nacion, and it lists--as I said--
I think over 20 brave Colombian soldiers and others, some of 
whom are teniente Gustavo Benitez Duque, cabo primero Carlos 
Guzman Mendez, Noel Angel Montes, Carlos Ernesto Buitrago 
Conde, Alexander Calcedo, Argelin Castillo Rodriguez, Ricardo 
Duarte Ascanio, Nestor William Lindarte Urbina, Naun Manosalva 
Chavez, Luis Merchan Nino, Jose Alberto Orozco Cardenas, 
Joaquin Ramos Fuentes, Juan Carlos Saldarriaga Varona, Rogelio 
Sanchez Leon, Gilberto Alonso Santana Romero, Jorge Argenio, 
Soler Madero, Hector Suarez Tangarife, German Geovany Telles 
Forero, Jose Manuel Varon Cabezas, and Francisco Javier 
Sanabria Lopez.
    In addition, Tecnico Orlando Caceres Munoz. All of these 
brave men died less than a week ago, shot out of the sky very 
likely because they were riding in an outdated, poorly armored, 
technologically inferior non-American-built helicopter.
    And we have here a four-page document of gobbledegook. A 
draft memorandum of understanding on end use monitoring and 
because of this document, perhaps that list of brave young men 
died. Because our State Department has decided it knows more 
about laws than this Congress or the President of the United 
States because it finds it difficult to interpret the laws, 
because they have made policy decisions that provisions in one 
law should apply to another law even through by the terms of 
that other law they don't, because an Ambassador has decided 
that additional DEA agents shall not be stationed at the 
Embassy even though the Congress and a law signed by the 
President has directed that they be, because in his view there 
is not enough room.
    I think that what we've heard here today really is 
outrageous. I don't know, Ms. Becker, how much you know about 
dealing with Latin American countries--maybe a great deal--and 
the way you deal with South American or Latin American 
military, but I suspect that there are quite a few perhaps 
graduate or even undergraduate students with some background in 
Latin American culture that could give you any number of 
reasons why if you put this document, which very clearly on its 
face says that the standards that we're applying apply to one 
branch of the military but not another, why it would be very 
difficult for them to sign this document quite aside from what 
I consider the illegal intent behind the document as we've 
already talked about with regard to whether or not certain 
United States laws apply.
    I do appreciate the witnesses being here today. Mr. Hinton, 
perhaps you can see now that you may not really be surprised 
that the State Department has obstructed providing information 
to you. They give every appearance today of believing that they 
are completely above the law.
    But we do appreciate GAO's effort to get at the truth here. 
We very much appreciate the work of all the men and women who 
serve in Colombia and other foreign countries, particularly the 
very brave personnel of DEA. And, Mr. Chairman, that's 
concluded the final round of questioning. Is there additional 
questioning?
    Mr. Hastert. I thank the gentleman from Georgia. You know, 
I think we all have to understand that this is a very, very 
important issue. I think it's one of the most important 
national security issues before this country at this time. And 
you'll have to excuse me if I get a little emotional about it, 
because I think this is something that we have to do.
    We have to win this war to protect our kids, to protect our 
neighborhoods, to protect our country. Because if we don't do 
it now we may lose the ability to do it ever. We may lose 
generations--a generation of children because of it. I feel 
very strongly about that. And I just wanted to let you know 
that I feel strongly about that.
    What do we get out of this hearing. I'd certainly like to 
have assurances from all our State Department witnesses here 
that we'll first of all get to the GAO all the documents that 
they need to get their report together. I hope that we'd be 
able to do that. Mr. Thessin, do you think that's possible?
    Mr. Barrett. Let me concur with that, Mr. Chairman, as 
well.
    Mr. Thessin. We're committed to working with the GAO. I 
think we can resolve the difficulties. Could I, if I might, Mr. 
Chairman, clarify one thing? I think as a former staffer to a 
Member of Congress I'm particularly sensitive to the need not 
to leave any misimpression. I know Chairman Burton was 
concerned that I may have done so in my previous remarks.
    I mentioned to him that there were five documents of the 
responsive documents we could find that GAO has not been 
provided. I want to make sure the committee is also aware that 
I'm informed that the Department has excised parts of 
approximately 10 documents in the substance involving matters 
such as foreign government information, intelligence 
information, law enforcement information, deliberations 
information, and information not relevant to the request.
    And I reiterate, we are prepared to sit down with the GAO 
and continue to work with them to resolve this matter.
    Mr. Hastert. I think that's a positive statement. I wanted 
to also get an assurance that you at least understand--maybe 
not agree with--but understand that many members of this 
committee in Congress, and likely the majority of the Members 
of Congress do not believe that Leahy applies at all to block 
the 614.
    We think that's a different issue. I think we think, many 
of us, believe that you're misapplying the law. And in fact, in 
many instances, by many people and the State Department--
Ambassador Gelbard before he went to the Middle East and 
others--said, 614 is going to happen. The waiver is going to 
happen.
    We're sitting here 4 months after that point in time. It 
hasn't happened. Whether you construe that there's a 
probability that maybe this may happen and the law says 
something else. I don't know how you construe that. But we're 
at that point. I would like to have you understand that, that 
we believe very strongly on that.
    We also want to make sure that we feel, Mr. Ambassador, 
that the DEA agents that we appropriated for last year get 
placed. We think that's very important. You may disagree. But 
we think that's important. We hope that you would go along with 
the wishes of the Congress passed and signed by the President, 
incidentally. It's an appropriation bill. So two bodies of this 
government said that that should happen.
    I hope that we can work together. The whole drug issue is 
something that's bigger than this State Department. It's bigger 
than this Congress. It's going to take an incredible effort to 
make a dent and win the war. And I have to be very honest with 
you, I'm just a little bit dismayed after this hearing today. 
Because I think we get so tied into--I think the word was 
gobbledegook that another Member used--that we tend up to get 
into the gobbledegook and not the common sense that Mr. Davidow 
was talking about. There seems to be little common sense here.
    I would hope we use more of it in fighting this war. And I 
look forward to working with you. We need to work and do a lot 
of work together. I hope that we're both on the same side of 
this issue. I think we are and if there is no further comment, 
I will leave the record open for 2 weeks for questions for the 
record.
    This hearing is closed.
    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
